<html>
<title> - THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST</title>
<body><pre>[Senate Hearing 114-815]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-815
 
                      THE U.S. ROLE AND STRATEGY 
                           IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
       
              U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-962 PDF              WASHINGTON : 2019           




                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
Hon. Anne Patterson, Assistant Secretary, Bureau of Near Eastern 
  Affairs, U.S. Department of State, Washington, DC..............     3
    Prepared Statement...........................................     5
Gen. John R. Allen, USMC, Ret., Special Presidential Envoy for 
  the Global Coalition To Counter ISIL, U.S. Department of State, 
  Washington, DC.................................................    12
    Prepared Statement...........................................    14

              Additional Material Submitted for the Record

Responses of Gen. John R. Allen to Questions Submitted by Senator 
  Rand Paul......................................................    53
Responses of Assistant Secretary Anne Patterson and Gen. John R. 
  Allen to Questions Submitted by Senator Edward Markey..........    54

                                 (iii)

  


                     THE U.S. ROLE AND STRATEGY IN 
                            THE MIDDLE EAST

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Johnson, Flake, Isakson, 
Barrasso, Cardin, Menendez, Shaheen, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We thank very much our witnesses for being here. As a 
matter of fact, I will start there. I have very much enjoyed 
the service of Anne Patterson, who is not leaving. So I am not 
going to focus on her this morning, but we thank her for her 
professionalism and have visited her, as many have, in her 
various assignments around the world. And I appreciate so much 
her professionalism.
    General Allen, I have to tell you we admire so much your 
service to our country over the last 43 years, your willingness 
to do what you have done most recently in the State Department, 
your direct, transparent, always helpful manner in dealing with 
all of us, and we wish you well as you move on to another 
chapter here very soon. You are very kind to be here. I know 
you do not like doing these kinds of hearings.
    General Allen. I love them, Chairman, actually. [Laughter.]
    The Chairman. As you know, we had planned to have General 
Allen in a closed session. And I have always found him to be so 
much more helpful to us in that type of setting just because of 
the tremendous knowledge you have about what is happening on 
the ground and your ability to communicate it effectively. I 
know that it was decided that we were going to have an open 
hearing in this manner, and I hope that will not inhibit you 
much, especially since you are on the way out the door. But we 
cannot thank you enough for your tremendous service to our 
country. Thank you.
    General Allen. Thank you, Chairman.
    The Chairman. Absolutely.
    I know that General Allen will focus more on Syria and 
Iraq. Ambassador and Secretary Patterson will focus on the 
entire region.
    Yesterday we had a 2\1/2\ hour session with Secretary 
Kerry. Secretary Patterson was a part of that or at least 
witnessed what was said. I know today she will have the 
opportunity to talk more broadly about the region. I know 
General Allen will focus more so on Iraq and Syria.
    But, look, we are having a series of hearings. I think the 
American people and all of us are somewhat confused about what 
our efforts are. I know that many Americans believe that we are 
disengaged from the Middle East, and yet we still have 40,000 
troops stationed in the Middle East in various capacities. We 
certainly have robust economic efforts that are underway and 
many other people-to-people type engagements that are 
occurring. So I think this gives us a tremendous opportunity to 
explore that for all of you to be open and honest with us about 
where we are. I am sure there will be some pretty strong 
questioning that will take place, but we thank you for being 
here.
    And with that, I will turn to our outstanding ranking 
member, Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. I first want to 
join you in welcoming both of our witnesses. Secretary 
Patterson is doing an incredible job in a very challenging 
region of the world. Of all the regional secretaries, you 
picked the one with the most challenges. So thank you very much 
for your service. And I agree with the chairman and his 
observations of General Allen. We thank you so much for your 
service.
    Let me, if I might, just quote from what Secretary Kerry 
said because I think he expressed our views of all the Members 
of Congress when he said about General Allen, ``he has worked 
relentlessly to build a vision among diverse groups of nations 
and bind them together with a common purpose.'' General Allen 
traveled to more than 30 capitals around the world, in so 
doing, garnered international support for a multifaceted 
approach to attack and diminish the threat posed by this brutal 
terrorist group.
    And I think, General Allen, I just really wanted to express 
the appreciation of the members of this committee for your 
incredible public service throughout your entire career and 
thank you very much for that.
    As the chairman pointed out, we have had a series of 
hearings in regards to the Middle East. Some have been very 
specific in its focus. This one is more general as to the 
current challenges in the U.S. role and strategy in the Middle 
East.
    I think first we need to underscore our interest in this 
region of the world. Yes, it is to stop the spread and use of 
weapons of mass destruction. It is clearly to underscore our 
commitment to Israel's security. It is for counterterrorism and 
the spread of violent extremism. It is good governance and 
respect for human rights. And that is one area that I have 
concentrated on because I think the United States makes it very 
clear that without good governance and respect for human 
rights, you cannot have long-term stability and security in a 
country. It is considering the energy resources in that part of 
the world. It is ensuring freedom of navigation and free flow 
of commerce. And it is certainly ending the regional civil 
wars, recognizing that that is critically important not just 
for stability and security in the region but the humanitarian 
crisis that we see today from the refugees fleeing the civil 
war in Syria.
    So against this backdrop of broad U.S. interests, then what 
are our objectives and what considerations should shape U.S. 
strategy going forward? And that is the purpose for today's 
hearing, to understand the strategies that the United States is 
employing. We certainly want to enable all citizens to live 
lives of dignity and equal opportunity.
    So there are substantial challenges in so many countries in 
that region. We have now completed the Iran deal. What are the 
consequences moving forward? We do not expect Iran to change 
its behavior. How do we counter its problematic activities in 
that region concerning terrorism and its ballistic missiles 
operations? How do we deal with the problems in Yemen? How do 
we deal with the problems in so many other countries in that 
region? And I look forward to a robust discussion with our two 
witnesses today.
    The Chairman. Thank you. Thank you, Senator Cardin.
    Our first witness is the Honorable Anne Patterson, 
Assistant Secretary of State for Near Eastern Affairs. Again, 
thank you for being here. Our second witness today is Gen. John 
R. Allen, Special Presidential Envoy for the Global Coalition 
to Counter ISIL. We thank you.
    You both have been here before. If you would summarize your 
comments in about 5 minutes. We have your written testimony. 
Without objection, it will be entered into the record, and we 
look forward to Q and A. And if you would start, Anne, we would 
appreciate it.

 STATEMENT OF HON. ANNE PATTERSON, ASSISTANT SECRETARY, BUREAU 
OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Patterson. Okay. Thank you, Mr. Chairman, 
Ranking Member Cardin, and members of the committee. Thank you 
for the opportunity to appear today.
    I am honored to appear with Gen. John Allen, our 
distinguished Special Presidential Envoy. We are both just back 
from trips to the region. I know you received a full readout of 
the Secretary's trip yesterday.
    I have submitted a full statement for the record.
    The roots of the unprecedented instability we are 
witnessing in the Middle East are deep and systemic. To protect 
U.S. interests amidst this volatility, we have to recognize and 
cope with the challenges that states across the region face: 
weak political legitimacy, ineffective institutions, an 
enormous demographic youth bulge, lagging economies, religious 
sectarianism, and a lack of consensus on the role of Islam in 
politics. Our most urgent priority is to combat ISIL, which is 
preying on weak states to terrorize citizens and to create a 
massive humanitarian disaster.
    There are no easy or quick fixes for these daunting 
challenges. However, there are some success stories, notably in 
Tunisia, and I look forward to next week's ceremony to 
celebrate the National Dialogue Quartet's winning of the Nobel 
Peace Prize. We are determined to continue helping Tunisia 
stabilize its fragile democracy, grow its economy, and build 
its security institutions.
    Likewise in Iraq, Prime Minister Abadi has made progress in 
reconciling Sunni-Shia differences and has courageously tackled 
corruption. We have a long road ahead, but we have stopped 
ISIL's territorial expansion and are helping stabilize areas 
liberated from ISIL.
    The administration succeeded in signing an agreement to 
remove the biggest threat to our security: Iran obtaining a 
nuclear weapon. We are fully cognizant of the challenges ahead 
with implementation of the Joint Comprehensive Plan of Action. 
The United States will lift nuclear-related sanctions only 
after the IAEA has verified that Iran has completed the 
required nuclear steps.
    Building on the historic summit that President Obama held 
at Camp David in May, we are helping our gulf allies counter 
Iranian aggression by building our defensive military 
capabilities and by limiting Tehran's ability to support 
proxies like Hezbollah.
    In Lebanon, we are strengthening the armed forces, 
targeting Hezbollah's financial support structure, and urging 
the government to elect a President.
    Egyptians are voting in parliamentary elections, and we are 
helping Cairo fight ISIL affiliated terrorists in Sinai, 
strengthen its border with Libya, and create jobs necessary for 
political stability. At the Strategic Dialogue in August, 
Secretary Kerry emphasized the need for Egypt to improve its 
human rights record, and we will continue to press for 
expanding freedoms for the Egyptian people.
    Secretary Kerry initiated meetings last week with Prime 
Minister Netanyahu, Palestinian Authority President Abbas, and 
Jordan's King Abdullah that resulted in a path to ease Israel-
Palestinian tensions. We condemn the violence against both 
Israelis and Palestinians in the strongest possible terms and 
welcome the steps the parties have agreed to calm the 
situation.
    Libyans are inching closer to a government of national 
accord due to the work of the United States, our European 
allies, and the U.N. A national unity government will give us 
the counterterrorism partner we need to stabilize Libya.
    In Yemen, the Houthis and representatives of former 
President Saleh and President Hadi have agreed to direct 
consultations that we hope will begin soon. We are pressing the 
Saudi coalition to deescalate its military campaign and ensure 
unfettered humanitarian access for assistance to the Yemeni 
people.
    Syria has been the subject of intense U.S. diplomacy. There 
is no military solution, and the international community cannot 
afford a continuation of the status quo, which yields only 
unending humanitarian catastrophes and refugee flows. Russia's 
military adventurism is directly aimed at United States-
supported moderate opposition forces and was prompted because 
the Assad regime was losing territory and control. But we know 
Moscow does not want an unlimited commitment in Syria.
    As Secretary Kerry told you yesterday, he believes that now 
is the time to make a maximum effort to end the Syrian 
conflict. The solution can only come through a political 
transition. The Russian, Turkish, and Saudi counterparts we 
brought together last Friday in Vienna agreed on this, and in 2 
days Secretary Kerry will bring together a larger group to help 
begin a political process amongst Syrians to negotiate a 
political transition. We have no illusions about the prospects 
for success. Our differences with Russia, Iran, and the Assad 
regime are very substantial, but the benefits of ending this 
conflict and giving the Syrian people a government that 
respects them are even greater.
    Mr. Chairman and members of the committee, the Middle East 
and North Africa is a deeply troubled region where profound 
challenges impede the better, economically successful, and 
politically stable future that the vast majority of people 
across the region fervently hope to achieve. At the same time, 
most of these countries are counting on the United States for 
support as they navigate this period of instability for 
security cooperation, for economic partnerships, and for a leg 
up in the 21st century.
    Thank you.
    [The prepared statement of Ambassador Patterson follows:]

           Prepared Statement of Ambassador Anne W. Patterson

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the committee, thank you for the opportunity to appear before you 
today to discuss the challenges facing American diplomacy in the Middle 
East and North Africa region. I am honored to appear before you today 
with Gen. John Allen, our distinguished Special Presidential Envoy. We 
are both just back from the region. I was with the Secretary in Jordan 
and Saudi Arabia over the weekend following talks in Vienna with some 
of our regional partners and the Russians on trying to find a way to 
end the war in Syria, a conflict that in many ways illustrates the 
challenges and threats we face in the region.
    Mr. Chairman, the growth of violent extremist groups, particularly 
ISIL--that prey on societies with weak or failed governments and that 
draw on support from the region and around the world--is unprecedented 
and creating new threats. As a consequence, the region is experiencing 
large-scale humanitarian suffering as well as widespread destruction 
and economic collapse, undermining efforts to end the violence.
    We have important national interests in the region to pursue, from 
counterterrorism cooperation to coordination on military issues to 
investment opportunities for American companies. The dedicated women 
and men at the State Department are engaged throughout the region and 
with the international community to press for steps toward peace and 
stability and promote urgently needed reforms in support of our 
critical national security interests. I will describe some of our 
policy challenges and opportunities--today and for the future--and will 
be glad to take your questions.
                the root causes of regional instability
    Today's instability has deep roots in six challenges that occur in 
varying degrees across the region, including:

  <bullet> First, challenges to political legitimacy--because so few of 
        the region's governments have a consistent tradition of open, 
        democratic elections where leadership can be challenged by an 
        unfettered opposition;
  <bullet> Second, lagging institutional competence--because many 
        regional governments lack effective institutions to provide 
        even basic public services. The most extreme example is Libya, 
        where it became clear that the national government was 
        extremely weak, with tribal, regional, and factional groups 
        that the former Qadhafi government had corralled to hold the 
        country together;
  <bullet> Third, demography--because the region's economies cannot 
        keep up with the rapidly growing population of young job 
        seekers. Unemployed young men--lacking skills, adrift, and 
        angry--helped lead the Arab Spring. Today, many of them are 
        prime recruits for armed gangs or violent extremist groups that 
        offer meaning for their lives and give them a sense of purpose;
  <bullet> Fourth, lagging economies--because regional governments 
        respond to the demographically driven demand for more jobs by 
        expanding public sector payrolls rather than undertaking 
        urgently needed reforms, adding to bloated government and 
        stifling local economies;
  <bullet> Fifth, growing religious sectarianism--because regional 
        rivalries, most particularly between Iran and Saudi Arabia, 
        have been manipulated to stoke tensions between Sunni and Shia 
        Muslims. This rivalry is playing out violently today in Syria, 
        Iraq, Yemen, and Lebanon. And the bitter sectarian narrative 
        has emboldened extremists on both sides to pursue twisted 
        interpretations of Islam; and
  <bullet> Sixth, the role of Islam in politics--because there is 
        little or no tradition of separation between religion and 
        politics in most of the countries of the region, regional 
        governments are struggling to find a widely supported consensus 
        on the role of religious political movements and parties.
                                 syria
    All of the long-term challenges I mentioned can be found in Syria. 
In the 4 years since the Assad regime launched a civil war on citizens 
seeking modest reforms, over 225,000 Syrians have been killed and 4 
million Syrians have become refugees. About half of Syria's prewar 
population of 22 million people has been displaced. The conflict has 
become a magnet for violent extremists from around the world.
    Our objectives in Syria remain clear: we will continue to degrade 
and ultimately defeat ISIL; we will continue to advance conditions to 
foster a negotiated political transition; and we will help Syrians lay 
the foundation for a free and pluralistic future--a future without ISIL 
or Assad.
    Although other regional countries have been involved in this 
conflict, both Iran and Russia have been long-time supporters of the 
Assad regime, and their new military adventurism has been directly 
pointed at U.S.-supported moderate opposition forces. The dangers of 
the current situation are clear.
    During our meetings on Syria in Europe and in the region last week, 
Secretary Kerry pressed the Russian, Saudi, and Turkish Governments on 
strategies to end the conflict and advance a genuine political 
transition. This group, as well as Foreign Ministers from other 
nations, will likely meet again this week to press forward on this 
dialogue.
    We believe Russia's decision to intervene militarily in Syria is a 
losing bet. They know full well that there is no military solution to 
this conflict. Russia's choice of airstrike targets has been 
overwhelmingly in areas where ISIL is not operating or dominant; 
meanwhile, the regime's attacks on its own people help ISIL recruit 
fighters to its extremist cause. In contrast, the U.S. is leading a 65-
member coalition against ISIL, its recruitment, financing, and 
propaganda efforts, as General Allen will describe, and we are 
supporting ISIL's opponents in the moderate opposition. The Secretary 
told Foreign Minister Lavrov that if Russia wants to effectively combat 
ISIL, it can contribute constructively to the international efforts 
already underway against ISIL. And the Secretary told Mr. Lavrov that 
Russia now has the responsibility to urge the Assad regime to stop 
brutalizing its own citizens and help advance a political solution. Our 
partners are relaying the same message.
    Over the past months, we have been meeting with a wide range of 
Syrian opposition leaders, including members of the external and 
internal political opposition, the leaders and political 
representatives of major armed factions, and local governance bodies in 
Syria to encourage their consolidation around a unified set of 
principles to guide negotiations and a political transition in Syria 
that preserves public institutions. They are doing so, more than at any 
other time during the conflict. We hope to build on this greater unity 
to pressure the regime and its allies to enter into a serious dialogue 
on a political transition in Syria.
                                 yemen
    Yemen is one of the world's poorest countries and for years has 
been plagued by instability derived from the factors affecting other 
countries in the region. Conflict has broken out several times over the 
past 20 years following the unification of North and South Yemen, which 
ended a several decades-long division of the country but also set off a 
battle for power and influence by forces from both the north and south 
hoping to maintain their interests in a unified Yemen. In August 2014, 
Houthi rebels took Yemen's capital of Sanaa by force, derailing a 
political transition process that began after a 2011 uprising against 
ex-President Ali Abdullah Saleh. The Houthi militias, with support from 
Saleh-affiliated forces, forced out the internationally recognized 
government of President Abd Rabbu Mansur Hadi. In response to a plea 
from President Hadi to defend the Yemeni Government from Houthi 
advances, the Saudis initiated an air campaign in March 2015 with a 10-
member coalition of predominantly Sunni Arab States.
    Saudi Arabia is motivated by the threat to their territory, 
demonstrated by ongoing cross-border attacks perpetrated by the 
Houthis. To help defend Saudi border security and restore the 
legitimate Yemeni Government, we have been providing logistical and 
intelligence support to the coalition through a Joint Combined Planning 
Cell in Riyadh.
    We are working intensively to find a political solution for the 
Yemen crisis. In Riyadh last weekend, we again strongly urged the 
coalition to de-escalate its military campaign and to ensure unfettered 
humanitarian access, and we are pressing all Yemeni parties, both 
directly and through the United Nations, to return to negotiations 
without preconditions. There are some signs of progress that we will 
work to build on in the coming months. The principal parties in the 
conflict--the Houthis, representatives of former President Saleh, and 
President Hadi--have all signaled their willingness to engage in direct 
negotiations, based on U.N. Security Council Resolution 2216, adopted 
last April, and we believe that talks aimed at ending the conflict in 
Yemen could start very soon.
    The U.N. has reported that over 2,500 civilians have been killed 
since March due to this conflict. We have pressed all sides to honor 
their obligations under international humanitarian law and to take all 
feasible actions to minimize harm to civilians. We have asked the Saudi 
Government to investigate all credible reports of civilian casualties 
resulting from coalition-led airstrikes and, if confirmed, to address 
the factors that led to them. Moreover, while we support Saudi Arabia's 
right to self-defense, we have repeatedly expressed our concern to the 
Saudi leadership that the continued military campaign is worsening a 
growing humanitarian crisis in Yemen. We continue to urge all parties 
in Yemen to allow for the unimpeded entry and delivery of essential 
relief and commercial items to the civilian population nationwide, 
including urgently needed food, medicine, and fuel, and to avoid 
attacks on infrastructure critical to responding to the humanitarian 
crisis.
                                 libya
    Libya, a country with enormous petrochemical resources, has been in 
economic freefall and has become essentially lawless as rival factions 
compete for political power. U.N. Special Representative of the 
Secretary General Bernardino Leon, with support from the United States 
and our European and regional partners, has been working tirelessly to 
break the long stalemate between the competing Tobruk-based House of 
Representatives and the Tripoli-based General National Congress.
    Despite the long list of challenges that Libya faces in the coming 
years, the Libyans are inching closer to a Government of National 
Accord due to these efforts. The parties still must approve the final 
political framework text and slate of leaders for its six-member 
Presidency Council. Both parties need to immediately endorse the final 
text and the slate of leaders to end the national crisis and help 
return Libya to a path of peace, stability, and prosperity.
                                 egypt
    Egypt, our long-time partner in regional peace and security, faces 
daunting economic and security challenges. While daily large-scale 
protests have largely come to a halt, Egypt faces an increasingly 
complex picture that includes ISIL-affiliated terrorists in Sinai and 
along its Libyan border, as well as emerging domestic terrorist groups.
    We welcome the Egyptian Army's military campaign against a growing 
ISIL-affiliated insurgency in Sinai and along the Libyan border. We are 
working to provide the Egyptians with both the equipment and the 
training required to make the difficult transition from a force focused 
on conventional warfare to one that can defeat a terrorist enemy using 
asymmetrical tactics. And we are focused on helping Egypt better defend 
its borders against terrorists. We will continue to urge the Egyptians 
to also provide economic assistance and compensation to the people of 
the Sinai who have been affected by combat operations.
    Over the past 2 years, the Al-Sisi government has initiated 
economic reforms designed to control spending, increase revenues, and 
stimulate investment. Growth has increased and Egypt's credit ratings 
have improved, but reforms appear to have slowed in recent months. We 
are encouraging Egypt to sustain the momentum, and we have offered 
assistance to support Egypt's reforms and encourage economic growth.
    But if Egypt is to recover and resume its leading role in the 
region, it will need to improve its human rights record. We welcome 
recent pardons for some democracy activists and journalists. However, 
at the Strategic Dialogue in Cairo on August 2, Secretary Kerry 
specifically raised--publicly and privately--our concerns about the 
radicalizing effect of continued restrictions on freedom of expression 
and assembly, as well as mass trials and the intimidation of civil 
society organizations.
    Egypt's parliamentary elections have begun--with the U.S. 
supporting teams of monitors. The first phase of voting took place 
October 17-19; the second phase will take place November 21-23. The new 
unicameral legislature will seat 596 members, with minimum quotas for 
women and Christians.
                                tunisia
    Since its 2011 revolution, Tunisia has taken remarkable and 
inspiring steps to build an accountable and representative democracy. 
Tunisia's democratic progress is an important counterpoint to those who 
assert that Islam and the Arab world are somehow incompatible with 
democracy. Tunisian Islamists, secularists, and many in-between are 
working together daily to negotiate and seek consensus for the benefit 
of their society and its future.
    The Nobel Committee rightly recognized the National Dialogue 
Quartet recently with its Peace Prize. Next week, I will participate in 
a ceremony celebrating Tunisia's accomplishments by presenting an award 
to Houcine Abassi, who heads one of the organizations that made up the 
National Dialogue Quartet. In recent years, these organizations have 
promoted consensus-building and social cooperation by working across 
the spectrum of Tunisian society to advance dialogue and foster 
Tunisia's continuing democratic transition. Their inspiring achievement 
is an example for societies working towards an inclusive transition 
from dictatorship to democracy.
    The consolidation of democratic governance will take time and 
patience as Tunisia builds its institutions and works to ensure the 
freedoms guaranteed to Tunisian citizens by their constitution. Despite 
historic legislative and Presidential elections in 2014 and the 
formation of a consensus government, the democratic transition and the 
country's security and economy remain fragile.
    The economy was mismanaged for decades prior to the revolution, but 
the government has publically stated its commitment to reform. High 
levels of youth unemployment, feelings of marginalization, and 
instability in Libya are helping spur radicalization among young 
Tunisians. The administration strongly believes that we must help the 
Tunisian Government and people build their security institutions and 
help bring their economy into the 21st century.
                                the gulf
    The United States has a long and deep history of political, 
military, and economic ties with the GCC states. We continue to work 
with our partners in the gulf to attempt to solve problems across the 
region, including in Syria, Yemen, and Libya. Our military and security 
cooperation with gulf countries play an essential role in our efforts 
to fight extremist threats. Even with their substantial oil and gas, 
the gulf countries face the need to economically diversify, provide 
employment opportunities for a growing population of young people, and 
combat extremist messaging and recruiting.
    Following the meeting at Camp David in May between President Obama 
and gulf leaders, the U.S. and the GCC reaffirmed our resolve to work 
together to strengthen regional security in light of the challenges our 
GCC partners must tackle, including Iranian aggression.
    Secretary Kerry and his GCC counterparts convened on the margins of 
the U.N. General Assembly in late September to review progress since 
Camp David, including facilitating arms transfers, bolstering 
counterterrorism efforts, enhancing military preparedness, building 
cybersecurity capabilities, and establishing a GCC interoperable 
ballistic missile defense architecture. We will continue to deepen this 
cooperation with the GCC in the months ahead.
    We also are also strengthening our bilateral engagement with key 
gulf partners. Just last weekend, Secretary Kerry and I were in Riyadh 
for one of his many meetings with gulf partners to discuss a way 
forward in Syria, follow up on Camp David, review efforts to improve 
gulf military capabilities, and discuss enhanced economic cooperation.
    Additionally, we are expanding our economic cooperation with the 
GCC. For example on Monday, Secretary Kerry and Secretary Lew cohosted 
the first meeting of the U.S.-Qatar Economic Dialogue and last month 
Secretary Pritzker participated in the launch of the Qatar Investment 
Authority office in New York, which will facilitate $35 billion in 
Qatari investments in the United States.
    Bahrain is one example of the partnerships we have built in the 
gulf. It plays a critical role in broader gulf security, hosting the 
Fifth Fleet and U.S. Navy Central Command Headquarters, at a base that 
allows the U.S. Navy to cover 2.5 million square miles of ocean and 
seas, and ensure freedom of commerce and navigation in a vital 
waterway. Our naval presence is a critical piece of the regional 
security architecture--without Bahrain's partnership, the United States 
would require additional deployed military assets to defend against 
external threats in the gulf region. As a major non-NATO ally, Bahrain 
provides extensive basing and overflight permissions for the counter-
ISIL campaign, participated in initial coalition airstrikes last 
September, and sent F-16 fighters to Jordan in February for anti-ISIL 
operations.
    Over the past several months Bahrain has raided, interdicted, and 
rounded up numerous Iran-sponsored weapons caches, arms transfers, and 
militants.
    But Bahrain will need to balance its legitimate security concerns 
with universal rights guarantees for its citizens, especially on 
freedom of expression and with the judicial system.
                                  iraq
    The United States is committed to Iraq's success, including efforts 
to govern effectively and inclusively and ensure that all Iraqis have a 
stake in the country's long-term campaign for security and stability. 
The Iraqi Government continues to face many challenges, such as 
decaying infrastructure, lagging social services, and security issues 
related to ISIL and the militias formed to combat it. These challenges 
are compounded by a dire fiscal crisis resulting from the steep drop in 
oil prices and the need for increased spending in the anti-ISIL 
campaign.
    In addition to the efforts of the coalition and our military that 
General Allen describes, our support has been critical to many of 
Iraq's achievements: the establishment of Prime Minister Abadi's more 
inclusive government in September 2014; Iraq's improved ties with its 
Arab neighbors; stabilization work in newly liberated territory to 
allow for the return of displaced families; and concrete steps toward 
decentralization of authority that will empower local communities.
    In August, Prime Minister Abadi announced an ambitious reform 
program that aims to reduce corruption, improve service delivery, 
increase accountability, and empower local authorities. Abadi's reforms 
were immediately and unanimously approved by the Council of Ministers. 
The reform program has gained the support of a broad cross-section of 
Iraqi society, including Grand Ayatollah Ali al-Sistani and others. The 
United States has stepped up with technical assistance, providing 
expertise to the government in order to help it manage its fiscal 
crisis and continue implementation of its plans for decentralization.
    Reconciliation between Sunni and Shia Iraqis is a key component of 
our strategy. Regrettably, hardline voices continue to oppose much of 
Prime Minister Abadi's efforts at reconciliation among the various 
Iraqi communities. However, U.S. support for the Abadi Government's 
ongoing efforts to mobilize Sunni tribal fighters against ISIL and to 
reestablish services and facilitate returns in liberated areas--many of 
which are majority-Sunni--is critical in ensuring that Sunnis in Iraq 
and in the region feel they have a stake in the country's future. The 
strong U.S. partnership with the Kurdistan Regional Government has 
helped shore up Iraq's Kurdistan Region against the ISIL threat, and we 
continue to encourage cooperation between Baghdad and Erbil on the many 
common issues they face.
    The United States is also helping to mitigate the humanitarian 
crisis caused by the fighting in Iraq. There are an estimated 247,000 
Syrian refugees in Iraq, mainly in the Kurdistan Region, and 3.2 
million internally displaced Iraqis. The United States has provided 
more than $600 million in humanitarian aid for Iraq over the past two 
years and is the top donor for addressing this crisis.
    As the coalition's military campaign proceeds, we are working to 
ensure that areas liberated from ISIL's control are secure, stable, and 
hospitable for Iraq's significant displaced communities to return home. 
The United States has donated $8.3 million to the UNDP stabilization 
fund for Iraq, and the coalition is helping lead efforts with the U.N. 
to support rehabilitation and the return of displaced civilians. To 
date, over 100,000 civilians have returned to Tikrit and surrounding 
areas, and we are already actively planning with the Government of Iraq 
and the international community for the stabilization of Anbar and 
other provinces.
                                  iran
    The October 18 ``Adoption Day'' of the Joint Comprehensive Plan of 
Action (JCPOA) marks a critical juncture in ensuring Iran's nuclear 
program will be exclusively for peaceful purposes as the JCPOA 
participants to the agreement begin to make the necessary preparations 
for the implementation of their JCPOA commitments. The intent of all 
JCPOA participants to move forward with implementation remains clear. 
As we have previously stated, however, the lifting of nuclear-related 
sanctions by the United States will only take effect once the IAEA has 
verified that Iran has completed its required nuclear steps. It is now 
up to Iran to take the nuclear steps required by the deal.
    The JCPOA is intended to remove the biggest threat to our security 
and that of the region--Iran obtaining a nuclear weapon. Yet Iran's 
destabilizing activities in the region remain a serious concern. Iran 
has continued its efforts to prop up the Assad regime in Syria and 
continued its attempts to provide weapons, funding, and training to 
Hezbollah, the Houthis in Yemen, Shia militants in Bahrain, and 
Palestinian terrorist organizations in Gaza. Iran has also continued 
its provocative testing of ballistic missile technology, its use of 
naval mines, and other surface and subsurface weapons to threaten key 
areas of the gulf, and its malicious activity in cyberspace. We work 
vigorously with our regional partners to counter these activities.
    Our ongoing efforts to push back on Iranian destabilizing 
activities fall into five broad lines of effort: First, we are 
undermining Iran's capacity to execute attacks directly or through its 
partners and proxies by expanding our cooperation with and 
strengthening the capacity of regional partners. Second, we are working 
to restrict Iran's ability to move men, money, and materiel for illicit 
purposes through sanctions. Third, we remain committed to Israel's 
security and that of our other regional allies, and we continue to 
build up our partners' capacities for self-defense against Iranian 
aggression. Fourth, we are working unilaterally and with allies to 
weaken and disrupt Hezbollah's financial, commercial, and procurement 
networks. And finally, we are working to disrupt Iran's relationships 
with its proxies by publicizing Iran's meddling wherever we can, and 
are strengthening democratic institutions and the rule of law in 
countries facing threats from Iranian proxy activities.
    With the GCC in particular, we have developed a robust initiative 
to build on the historic summit that President Obama held with gulf 
leaders in May. This initiative represents a comprehensive approach to 
enhance our defense and security cooperation with GCC states and to 
advance our shared interests in the region, particularly countering 
Iranian aggression. Five working groups on Arms Transfers, Military 
Preparedness, Ballistic Missile Defense, Counterterrorism, and 
Cybersecurity have already met. A sixth working group, focused on 
countering Iran's destabilizing activities in the region, will meet 
next week. We have already made important progress in these efforts, 
including securing consensus to design a gulf ballistic missile early 
warning system, an agreement to streamline arms sales to GCC countries, 
plans for a major multilateral military exercise, and steps to improve 
cybersecurity for critical infrastructure.
    In parallel to our Camp David initiative with the GCC, we continue 
our close cooperation with Israel to maintain its qualitative military 
edge and strengthen its defense against Iran, its proxies, and other 
regional threats. We have provided Israel with unparalleled access to 
some of the most advanced military equipment in the world that no other 
country in the region has access to, including the F-35 Joint Strike 
Fighter, and in cooperation with our partners in Congress, we continue 
to provide more Foreign Military Financing (FMF) to Israel than any 
other country in the world. The United States, through Department of 
Defense Authorities, has also invested $2.9 billion in the Iron Dome 
system and other missile defense programs and systems for Israel.
    In addition to the above measures, and even as the JCPOA is 
formally implemented, the United States will continue to enforce 
sanctions on Iran for its Iran's human rights abuses, its ballistic 
missile activities, its support for terrorism, and its destabilizing 
activities in the region.
    We will also continue to seek the immediate release of imprisoned 
Americans, Amir Hekmati, Saeed Abedini, and Jason Rezaian, and continue 
our calls on Iran to cooperate with the United States to determine the 
whereabouts of Robert Levinson, who went missing in Iran in 2007. We 
will do so until they are all reunited with their loved ones here in 
the United States.
                           middle east peace
    We are deeply concerned about recent violence and escalating 
tensions between Israel and the Palestinians and are very troubled by 
the attacks in recent weeks. We condemn in the strongest possible terms 
violence against Israeli and Palestinian civilians. We extend our 
condolences to the victims and their families.
    We have seen positive steps by both Israeli and Palestinian leaders 
to ease tensions and are hopeful that the violence will soon subside. 
We need to see an end to any statements that inflame tensions or incite 
attacks.
    Secretary Kerry met last week with Prime Minister Netanyahu in 
Berlin and Palestinian leader Mahmoud Abbas and King Abdullah in Amman 
to discuss efforts to reduce tensions.
    At the same time, the U.S. commitment to Israel's security remains 
unshakeable. Israel remains the leading recipient worldwide of U.S. 
Foreign Military Financing (FMF). The current 10-year $30 billion 
Memorandum of Understanding between the United States and Israel, of 
which Israel currently receives $3.1 billion per year, is just one 
example of our strong, ongoing partnership.
                                lebanon
    Lebanon has been without a President since May 2014, contributing 
to a paralysis of key political institutions at a critical moment. We 
have urged Lebanese leaders of every faction to put aside their 
differences, elect a President, and restore a functioning Cabinet that 
will fulfill its responsibilities and meet the needs of the people.
    Meanwhile, we are doing everything we can to strengthen Lebanon's 
institutions, particularly the Lebanese Armed Forces. Lebanon is a 
member of the Counter-ISIL Coalition, and the Lebanese Armed Forces 
must have the equipment and training required to do the job. In 
September, we announced that we are doubling--to $150 million--the 
amount of Foreign Military Financing to the Lebanese Armed Forces this 
year. These funds will allow the Lebanese Armed Forces to buy 
munitions, improve close air support, sustain vehicles and aircraft, 
modernize airlift capacity, provide training to its soldiers, and add 
to the mobility of armored units.
    We share Congress's goal of putting pressure on Hezbollah by 
targeting the group's financial support infrastructure. The State 
Department and Treasury Department work together to identify Hezbollah 
operatives and witting supporters around the world, publicly designate 
them, and freeze their assets and make it impossible for them to access 
the international financial system. This means targeting individuals 
and companies around the world that provide support to Hezbollah. The 
administration will continue to work with Congress to advance this 
shared goal in the most effective way possible. Hezbollah's global 
terrorist activity, criminal enterprises, and military operations in 
Syria and elsewhere threaten global security and contribute to regional 
instability. Disrupting Hezbollah's far-reaching terrorist and military 
capabilities by targeting the group's financial support, commercial, 
and procurement infrastructure remains a top priority for the U.S. 
Government and has been implemented through the application of a range 
of U.S. Government authorities. We will seek to take action against any 
individual or entity wittingly providing support to Hezbollah, wherever 
they are located. U.S. Government agencies work closely together to 
expose and target Hezbollah's financial and commercial activities 
around the world and we press our international partners to support 
this effort.
                               conclusion
    Mr. Chairman and members of the committee, as I described at the 
outset today, the Middle East and North Africa is a troubled region 
where profound challenges stand in the way of the better, economically 
successful and politically stable future that the vast majority of 
people across the region fervently hope to achieve. At the same time, 
most of these countries are counting on the United States for support 
as they navigate this period of instability--for security cooperation, 
for economic partnerships, and for a leg up to the 21st century. This 
is America's role. This is what is expected by our partners in the 
region and beyond.
    As I explained, the State Department is working very hard, and in 
partnership with dedicated professionals across our government, to 
address the conflict in Syria, to stabilize Iraq, and to mitigate the 
impact on our friends in Lebanon and Jordan. We are helping press the 
parties toward negotiations in Libya and in Yemen. We are taking steps 
to implement the Iran deal, while strengthening our partnership with 
the gulf countries to address Iran's continuing efforts to destabilize 
the region. We are continuing to work on our partnership with Egypt, 
particularly in strengthening its security and economic reforms. And, 
we continue to support Israel's security and urge the resumption of 
negotiations toward a two-State solution that will bring a lasting 
peace to the Middle East.
    The United States is deeply engaged with the countries of the 
region because we have shared interests that are important to our 
national security and economic well-being. Our diplomats are involved 
in the painstaking details of negotiations to end conflicts and to 
build new, more stable partnerships. American vision and leadership is 
needed to help the region's leaders take the steps necessary to reform 
their political systems and their economies and provide hope for young 
people. With the funds provided by Congress, we are also able to 
provide critical support for societies in transition.
    Chairman Corker, Ranking Member Cardin, members of the committee: 
We have to keep our long-term vision in mind. Even during these 
difficult days, there is evidence that irreversible changes are 
underway in the region. Investment in the United States by our gulf 
partners continues to grow, reflecting confidence in our relationships. 
Unprecedented numbers of young people from the region are studying in 
the United States or in regionally based U.S. institutions. In some 
countries, women are seeking and attaining greater freedoms. And a 
younger generation of political leaders--many with extensive U.S. 
experience--are moving to positions of responsibility in government and 
business. Beyond the need to address current crises, all these trends 
speak to the continuing need for an American leadership role in this 
region.
    Thank you for the opportunity to testify, and I look forward to 
answering your questions.

    The Chairman. Thank you.
    General Allen.

     STATEMENT OF GEN. JOHN R. ALLEN, USMC, RET., SPECIAL 
 PRESIDENTIAL ENVOY FOR THE GLOBAL COALITION TO COUNTER ISIL, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    General Allen. Chairman Corker, Ranking Member Cardin, 
esteemed members of the committee, thank you for providing me 
this opportunity to update you today on the progress of the 
Global Coalition to Counter ISIL. I will refer to it ISIL and 
Daesh, which is the Arabic acronym, as we go through the day.
    I am honored to appear alongside today one of the premier 
diplomats of our time, Ambassador and Assistant Secretary Anne 
Patterson.
    As the committee knows, the challenges in the region are 
great. I returned to Washington on Friday from consultations 
with our gulf partners and on the heels of a trip to Amman, 
Baghdad, and Erbil where I met with the most senior leadership 
for wide-ranging discussions on the counter-ISIL strategy. 
This, in turn, follows immediately on the heels of the U.N. 
General Assembly where President Obama convened a meeting of 
the Counter-ISIL Coalition and other key international leaders 
and groups engaged in countering violent extremism. It has been 
a busy time. And I might add that at the U.N. General Assembly, 
three other nations announced their membership and commitment 
to the Counter-ISIL Coalition, Tunisia, Nigeria, and Malaysia.
    As I appear before this distinguished committee today, it 
is important to take stock of the dire situation that was 
unfolding a year ago. ISIL had advanced unimpeded into Iraq. 
U.S. Government personnel in Erbil and Baghdad were under 
severe threat, and ISIL laid siege to the Sinjar mountain where 
they intended to annihilate the Yazidi population. Mosul had 
fallen. Tikrit had fallen. And we witnessed atrocities 
unparalleled in our experience.
    A year later, the coalition has applied significant 
pressure on this group, hitting ISIL with more than 7,500 air 
strikes, nearly 6,000 of which the United States has conducted, 
and taking out, as the Pentagon announced last week, just as a 
measure of the effect, 70 senior and mid-level ISIL leaders 
from May, roughly two every other day.
    With 18 coalition members, having trained more than 14,000 
Iraqi and peshmerga soldiers to date, we have denied ISIL 
freedom to operate in over 30 percent of the populated 
territory in Iraq held just last August. And the iconic city of 
Tikrit has been liberated, and 75 percent of the population has 
returned. ISIL has been almost completely pushed back from 
Bayji where Iraqi aircraft flying U.S.-supplied F-16s have 
provided close air support to operations on the ground. And 
four columns of Iraqi troops are closing in on Ramadi, the 
capital of the Al-Anbar province, which we anticipate in the 
coming months will be the next liberated city.
    As this coalition knows, the situation in Syria is no less 
challenging, as Ambassador Patterson has just mentioned, and 
the Russian presence has further complicated matters 
completely, which Ambassador Patterson will also address with 
us in the questions and answers. The United States continues to 
support ground forces in northern Syria to take back territory, 
and we now have cut off ISIL from all but 68 miles of the 600-
mile border with Turkey. And today, some of those forces are 
within 30 miles of ISIL's nerve center, if you will, its 
capital, Raqqa.
    But beyond the military aspects of the campaign that will 
inevitably receive the most attention, we must not forget the 
pressure that we exert against this group along other mutually 
supporting lines of effort. While we have taken back ISIL's 
primary border crossing from foreign terrorist fighters 
traveling between Turkey and Syria, we must stress that the 
Turkish border is the last line of defense in combating this 
phenomenon. As I have already mentioned, we are working with 
Turkey and local partners to clear ISIL from the final 68 miles 
of the border and prevent the further infiltration of foreign 
fighters, though the Russian incursion into Syria will likely 
make this more complex.
    We need all nations working together at each link in the 
chain of the movement of foreign fighters from the point of 
radicalization, to the point of violence, and to the point of 
return and rehabilitation.
    You will also recall earlier this year in May, our armed 
forces conducted a special operations raid on ISIL's finance, 
oil, and antiquities emir, Abu Sayyaf. We took from the raid 7 
terabytes of information, hard drives, thumb drives, DVDs, CDs, 
and paper, and the exploitation of that information and 
material is giving us important insights into the organization 
of ISIL and its economic portfolio.
    As ISIL continues to brutalize and extort its population 
for cash, the coalition is coordinating efforts to stabilize 
areas liberated from ISIL's grasp. Several nations, including 
the United States, with the support of Congress, have made 
sizable contributions to a fund for immediate stabilization in 
Iraq, which we created with the U.N. Development Program. This 
multinational fund, multilaterally supported, has enabled Iraqi 
authorities to respond quickly to urgent needs requiring Iraqis 
to reestablish critical and essential services such as water, 
electricity, and medical services.
    The ravaged communities ISIL leaves in its wake bear 
witness to ISIL's true nature, one we are actively working with 
coalition partners to expose, ensuring that an Arab face and a 
Muslim voice is our messaging strategy. Just one example. The 
State Department's Center for Strategic Counterterrorism 
Communications have managed a multimedia campaign of 
testimonies from ISIL defectors, generating some 900 news 
articles and reaching an estimated population and an audience 
of 90 million.
    To that end, we as a people must never ever accept that 
organizations like ISIL can become the new normal. We must 
never lose our moral outrage at what we have seen this 
organization do and is doing every day.
    Taking the fight to ISIL requires that we be flexible and 
patient in our efforts. It also requires close coordination 
with this committee and our colleagues in the Congress so that 
we can constantly evaluate our tactics and strategy and that we 
are resourcing them appropriately.
    I want to thank you, Chairman, and Ranking Member Cardin 
for this opportunity to continue this process of coordination 
and consultation. And as I end this term, I wanted to tell you, 
sir, I enlisted in the service when I was 17 and I spent my 
adult life in the military. But I have spent the last year 
working closely with the State Department. And I want to thank 
this committee for the support that it has given to the State 
Department, the Foreign Service, and the magnificent 
professionals in that organization. And when I thank Americans 
and when I thank those who serve today, I call on Americans to 
not just thank our men and women in uniform. They should be 
thanking our diplomats and our employees of the State 
Department as well, sir. Thank you for that support.
    [The prepared statement of General Allen follows:]

         Prepared Statement of Gen. John R. Allen, USMC (Ret.)

    Chairman Corker, Ranking Member Cardin, esteemed members of the 
committee, thank you for providing me the opportunity to update you on 
the progress of the Global Coalition to Counter ISIL. I am happy to be 
here with my esteemed colleague, and one of America's premier 
diplomats, Ambassador Anne Patterson who serves as the Department's 
Assistant Secretary for Near Eastern Affairs.
    As this committee knows, the challenges in the region are great. I 
returned to Washington on Friday from consultations with our Gulf 
partners, on the heels of a trip to Amman, Baghdad, and Erbil, where I 
met with their most senior leadership for wide-ranging discussions on 
the counter-ISIL strategy. This in turn follows immediately on the U.N. 
General Assembly where President Obama convened a meeting of the 
Counter-ISIL Coalition and other key international leaders and groups 
engaged in countering violent extremism. It has been a very busy time.
    Since I began serving in this role in September of 2014, I have 
traveled to more than 30 Coalition capitals, with some of those 
capitals repeatedly, over my tenure. During that time the Coalition has 
grown and we have added more countries and international organizations 
to our ranks, and I am happy to say that the Coalition is now 65-
strong. Last month, we welcomed our three newest members--Nigeria, 
Tunisia, and Malaysia--three key nations joining the global effort 
against ISIL's attempts to expand its influence in new regions. There 
are other nations similarly preparing to join this unique partnership.
    As I appear before this distinguished committee today it is 
important to take stock of the dire situation that was unfolding one 
year ago. ISIL had advanced unimpeded into Iraq. We were seeing 
atrocities, more horrific than any I have ever seen or even could have 
imagined: the beheadings, the crucifixions, the electrocutions, the 
drownings, and of course the one that I believe focused the collective 
horror and rage of the world, the nightmarish burning, the immolation, 
of Captain Moaz al-Kasasbeh, the Jordanian pilot captured by ISIL, who 
stands as a hero to us all. He and his family remain in our prayers.
    At the same time a year ago, Erbil and Baghdad were under severe 
threat as ISIL advanced rapidly on those cities--key locations where 
U.S. Government personnel are located. Tikrit had fallen. Kirkuk was 
threatened. The Mosul Dam, critical strategic infrastructure on the 
Tigris River, had been taken. ISIL had also laid siege to a place few 
had even heard of before in this country or in the West, a place called 
Sinjar Mountain, where ISIL intended to annihilate the Yazidi 
population.
    A year later, the Coalition has applied significant pressure on 
this organization, hitting ISIL with more than 7,500 airstrikes--nearly 
6,000 of which the United States has conducted--and taking out, as the 
Pentagon announced last week, some 70 senior and mid-level ISIL leaders 
since the beginning of May--that is one killed every 2 days.
    We have also removed from the battlefield, in both Iraq and in 
Syria, over 2,600 vehicles and tanks, over 400 artillery and mortar 
positions, and nearly 6,500 fighting positions, checkpoints, buildings, 
bunkers, staging areas and barracks, including 30 training camps. 
However, we are not naive, the task is daunting and this fight is far 
from over.
    Coalition strikes are hitting personnel and infrastructure that 
ISIL relies on for command and control, financing, logistics, and 
propaganda. Even as they replace their leaders and facilitators, our 
air strikes are forcing ISIL to change the way they communicate, the 
way they move, reinforce and resupply.
    With 18 Coalition members having trained more than 13,000 Iraqi and 
peshmerga soldiers to date, we have denied ISIL the freedom to operate 
in over 30 percent of the populated territory in Iraq they had held 
last August. The iconic Sunni city of Tikrit has been liberated and 75 
percent of the population has returned. ISIL has been almost completely 
pushed back from Bayji, where the Iraqi Air Force is flying U.S.-
supplied F-16s to support operations on the ground. And four columns of 
Iraqi troops are closing in on Ramadi, the capital of Anbar province, 
which we anticipate in the coming months will be the next liberated 
city.
    Iraq's Prime Minister Abadi has also proved to be a strong partner, 
the moderate leader Iraq has needed to help forge a national unity. He 
has empowered local Sunni leaders like the Governors of Anbar and Salah 
ad-Din to ensure Sunnis have a role in securing their communities and 
live with dignity in Iraq. Abadi's ambitious reform agenda and efforts 
to root out corruption are critical to the national reconciliation 
process. And we understand too well that to successfully defeat the 
scourge of extremism one must fight for political reform and inclusion 
as ardently as one pursues the military battle. Our continued support 
to the Iraqi Government and to Prime Minister Abadi is essential.
    There is no question that this is going to be a long-term conflict 
and there is much work remaining, but we will succeed in degrading and 
ultimately defeating this organization. We must make clear that any 
aura of invincibility that surrounded ISIL has been shattered. ISIL is 
not invincible; it is defeatable, and is being defeated--by brave 
Iraqis, Sunni, Shia, Kurdish, and minority groups--defending and taking 
back their towns, cities, and ultimately, their country, with the 
support of the United States and our Coalition partners.
    As this committee knows, the situation in Syria is no less 
challenging, and the Russian military operations there have only 
complicated matters further. The United States continues to support 
ground forces in northern Syria to take back territory, who have now 
cut ISIL off from all but 68 miles of the nearly 600-mile border with 
Turkey. This progress has been essential to our fight against ISIL. 
These forces have liberated Kobane from ISIL in the west, connected 
with others who expelled ISIL from Tal Abyad--the group's primary 
border crossing with Turkey--and have now cleared al-Hasakah from ISIL 
in the east toward Iraq. Today some of those forces are within 30 miles 
of the group's nerve center--its capital, if you will--in Raqqa.
    We must not forget the Turkish Government, a critical partner in 
this fight, which recently increased its participation in the 
Coalition, opening its bases to U.S. and other Coalition members, and 
conducting air strikes on ISIL targets inside Syria alongside other 
Coalition aircraft. This cooperation has already had an impact and will 
continue to have a significant impact on our operations in Syria, 
reducing the transit time to just 18 minutes from up to 4 hours from 
bases in the gulf.
    These and other military aspects of the campaign will inevitably 
receive the most attention. But as I have seen in the four previous 
Coalition efforts with which I have been involved, it will ultimately 
be the aggregate and cumulative pressure of campaign activity over 
multiple, mutually supporting lines of effort that will determine the 
campaign's success.
    It is for this reason that when I visit a Coalition capital and 
meet with a Prime Minister or a King or a President, I describe the 
Coalition's counter-ISIL strategy as being organized around multiple 
lines of effort: denying safe haven to ISIL militarily and providing 
security assistance to partners on the ground; disrupting the flow of 
foreign terrorist fighters; disrupting ISIL's financial and economic 
resources; providing stabilization support to newly liberated areas; 
and countering ISIL's messaging--or defeating ISIL as an idea.
    First and foremost, the immediate and generational challenge 
presented by foreign terrorist fighters evokes nearly universal concern 
in my conversations with Coalition partners.
    While we have taken back ISIL's primary border crossing between 
Turkey and Syria, we must stress that the Turkish border is the last 
line of defense in this equation. As I already mentioned, we are now 
working with Turkey and local partners to clear ISIL from the final 68 
miles of that border, and ultimately prevent the further infiltration 
of foreign fighters.
    Since the passage of U.N. Security Council Resolution 2178 that the 
United States led in September of last year, 22 countries of the 
Coalition have upgraded their legislation to create greater barriers 
for traveling to Syria and Iraq. At least 34 countries have arrested 
foreign fighters or aspirants, and 12 have successfully prosecuted 
them. We need all nations working together at each link along the 
chain--from the point of radicalization, to the point of violence, and 
to the point of return and rehabilitation. We are, however, deeply 
concerned that the Russian intervention into Syria will further 
complicate, indeed exacerbate, the foreign fighter problem. Many of the 
gulf leaders with whom I met recently predicted Russian actions in 
Syria will even more increase the flow of foreign fighters to the 
region.
    The kind of information sharing that has helped on foreign fighters 
has also allowed the Coalition to make significant gains in squeezing 
ISIL's access to financial resources and networks in both Syria and 
Iraq, and more broadly globally.
    You will recall earlier this year in May, our Armed Forces 
conducted a Special Operations raid on ISIL's finance, oil, and 
antiquities emir, Abu Sayyaf. We took from the raid seven terabytes of 
information--hard drives, thumb drives, DVDs, CDs, paper--and the 
exploitation of that material is giving us very important insights into 
the organization of ISIL and its economic portfolio.
    It was from information yielded in this raid that our Coalition 
aircraft hit 26 targets just last week in Syria and Iraq, including 
most importantly the Omar oil field in Deir-ez-Zor, which yielded ISIL 
up to $5 million per month. Among our targets were other oil 
refineries, command and control centers, transportation nodes, and cash 
distribution sites, making it one of the largest set of strikes since 
launching the air campaign last year. And pressure will continue to 
build.
    As ISIL continues to brutalize and extort its population for cash, 
the Coalition is coordinating efforts to stabilize areas liberated from 
ISIL's grasp. Stabilization is central to our long-term success as we 
eliminate threats and help local communities recover and provide a 
safe, welcoming environment for their displaced populations.
    The Italians are leading an effort to train an effective Iraqi 
police force that can ensure the safety and security of liberated 
areas. The Canadians have stepped forward to ensure protections and 
programs for women and girls are incorporated. Several nations, 
including the United States with the support of Congress, have made 
sizable contributions to a fund for immediate stabilization in Iraq, 
which we have created with the U.N. Development Program. This 
multilateral fund has enabled Iraqi authorities to respond quickly to 
the urgent needs of returning Iraqis, such as water, electricity, and 
health care. Germany and the United Arab Emirates are helping organize 
contributions from more than 20 Coalition partners to provide support 
for this fund.
    The ravaged communities ISIL leaves in its wake bear witness to 
ISIL's true nature, one we are actively working with Coalition partners 
to expose, ensuring there be an Arab face and Muslim voice in our 
messaging strategy. The State Department's Center for Strategic 
Counterterrorism Communications helped manage a multimedia campaign of 
testimonies from ``ISIL Defectors,'' generating some 900 news articles, 
reaching an estimated audience of 90 million people worldwide.
    The United Arab Emirates has launched a joint messaging center with 
the United States in Abu Dhabi called the Sawab or ``Right Path'' 
Center, which is coordinating and driving counter-ISIL messaging 
activity in the region, combating ISIL's efforts to recruit foreign 
fighters, raise funds, and terrorize local populations. As we learn 
from Sawab's operations, we are institutionalizing best practices and 
helping others grow capacity, including setting up new messaging 
centers in Malaysia, Nigeria, and Tunisia, as well as in Saudi Arabia 
with the OIC, and in Brussels with the EU.
    Over the past year, the Coalition has sought to send a clear 
message, a message to ISIL and a message to the world: ``We refuse to 
observe and stand idly by its atrocities. We reject its toxic, false 
ideology and doctrines. And we abhor its vicious and continual assault 
on human dignity.''
    To that end we as a people must never, ever accept that 
organizations like ISIL can become the new normal. It cannot become the 
new normal. We must never lose our moral outrage at what we have seen 
this organization do and is doing every day, and what it intends to do 
to the people that it subjugates, and to the people of this country and 
in this room if left unchecked.
    Taking the fight to ISIL requires that we be flexible and patient 
in our efforts. It also requires close coordination with this committee 
and with your colleagues in Congress, so that we are constantly 
evaluating our tactics and strategy, and that we are resourcing them 
appropriately.
    I thank you for the opportunity to continue that process of 
coordination and consultation today, and I look forward to taking your 
questions.

    The Chairman. Thank you. Thank you very much.
    I think I will start with Secretary Patterson. You know, 
with especially what happened with the Iran nuclear agreement, 
there has been a renewed effort to try to understand what our 
Middle East policy is and for Congress to play a role in that. 
I think the administration is attempting to do the same right 
now.
    As I look at Libya where we basically went in for the short 
term and left a country ungoverned, still ungoverned in many 
ways, as I look at Egypt where we had folks that were trying to 
cause the country to become not a secular country but one that 
was very focused on religious ideology, and so someone comes in 
to change that, and then all of a sudden we are not really 
helping them. We are holding back support because we do not 
like the way they did it because of human rights issues.
    In Iraq, we had in 2011 a check-the-box mentality. We are 
done with Iraq and obviously we are back in in a different way 
now.
    In Syria, our policy has been Assad must go, and yet Assad 
is there and we really have not done much to cause Assad to go.
    We had extended testimony yesterday on Yemen. We are for 
the folks who are supporting the government, but not really for 
them.
    In Iran, obviously we have just totally turned the tables 
relative to our relationship there, and obviously they are 
going to be at the table on Friday if they accept.
    In Israel, somebody that has been a longtime friend, it is 
hard to tell whether the administration is friend or foe at 
present.
    And, I just wonder if you might lay out for us what sort of 
the Middle East vision has been for the administration, and if 
that has changed in recent times because of circumstances, what 
it is today because it is really hard, as you look at all the 
pieces, to understand if there is a congruent Middle East 
policy and something that we might learn from the 
administration today, at least what that is.
    Ambassador Patterson. Well, thank you, Mr. Chairman.
    Obviously, as I said, it is a deeply troubled and deeply 
conflicted region. But I do think that we have certain 
overriding principles in the region, and the first is our 
counterterrorism policy. That has obviously been a challenge 
and an increasing challenge in Libya and other places in the 
region and Yemen as well. I would say that is our first 
priority.
    The second is human rights and democracy and economic 
growth. And we have tried to promote those. I think they are 
very much under the radar, particularly some of our economic 
policies at this time, to promote entrepreneurship, to promote 
employment, to try and get some of these enormous youth bulge 
issues that are destabilizing the region. So that is also a key 
element of our policy.
    And then finally, I think I would be the first to admit, 
Mr. Chairman, that we have been absolutely absorbed by the 
crises in the region such as ISIL in Syria and in Libya, and we 
have been unable in many respects to implement successfully 
these longer term strategies and focus on the underlying 
difficulties in the region.
    Let me point out, however, that I think we have made very 
considerable progress in some parts of North Africa. I think 
relations with our gulf allies have improved quite dramatically 
due to the work on the Camp David summit and our security 
guarantees and trying to reassure them of our permanent 
commitment to their security. So I think there are some 
positive elements that we can point to in our policy.
    But again, I would be the first to admit that we have been 
quite absorbed by crisis management during this administration.
    The Chairman. My sense is that 3 years ago maybe the 
administration had one view of the Middle East, and today that 
has evolved to a degree. Have there been shifts, if you will, 
that might enlighten us relative to how the administration is 
looking at the region just because of these crises that you are 
talking about?
    Ambassador Patterson. Mr. Chairman, I think if I had been 
here 3 years ago--and I was in Egypt 3 years ago--I think there 
was a perhaps overly optimistic impression that we could focus 
on democracy promotion and economic growth in places like Egypt 
and North Africa and even in the Levant. That has proved to be 
exceedingly difficult.
    So over the past 3 years, our focus has really changed to 
the counterterrorism initiative, which was always a high 
priority, and essentially to develop what General Allen is 
carrying out which is a coalition to fight ISIL and other 
terrorists in the region. We should not forget about the 
persistent presence of al-Qaeda in Yemen. So I would say we 
have evolved.
    The Chairman. General Allen, this Friday there was a 
meeting that I know Secretary Kerry seemed very optimistic 
about yesterday in our closed briefing. It is hard to square 
for me anyway. It is hard to square sort of the facts on the 
ground with the potential for some grand diplomatic solution on 
Friday when you see Russia's efforts, it seems, have been more 
toward the Free Syrian moderate groups than they have toward 
ISIS. You have got Iran on the ground there working with them.
    I am wondering if you have any thoughts about, from your 
perspective, since your military background is so extensive and 
so respected--as you look at the facts on the ground today, 
where do you see a diplomatic solution going in Syria that is 
reconcilable and ends up being something that represents United 
States national interests?
    General Allen. Well, Chairman, as we have said before in 
our conversations and I have attempted to portray, this is one 
of the most complex situations that I have seen in my career. 
The ground in Syria is rife with conflict in a number of 
different levels and in a number of different directions. Much, 
of course, of what we see in Syria, if not virtually all of 
what we see in Syria, is a direct result of the Assad regime, a 
direct result of during the spring of 2011 when legitimate 
voices of the Syrian people called for reform, rather than to 
listen to those voices and perhaps embrace the opportunity for 
reform, he turned on them.
    And that created the situation that we see today, which is 
that large segments of the population, which we might call 
moderate Syrian, are seeking to defend themselves. Elements of 
the population have gravitated toward al-Qaeda. So al-Qaeda has 
put down roots in the country in a very serious way, Jabhat al-
Nusra, and that ISIL found itself free to incubate, if you 
will, to create the organization that it has today, which 
nearly pushed Syria over the edge and nearly pushed Iraq over 
the edge.
    So we have a very complex environment on the ground which, 
until just recently, the last several months, I did not see 
that we had many options frankly in terms of being able to 
influence the ground. And in the aftermath of a couple of 
things, which is our work with Syrian elements that we could, 
in fact, work with, having taken back much of the Syrian-
Turkish border, that has given us options both in terms of 
closing off that border but having access to Syrian partners 
with whom we can deal. As well, Turkey is now in this game in a 
way that we had not seen just months ago, and that I think has 
given us a platform regionally to have options.
    And so at this particular juncture, we are trying to 
develop the situation which is to contain, ultimately degrade 
and defeat Daesh, which is a strategy in and of itself. We have 
policy objective to seek to reduce the violence in the region 
and to undertake some kind of a political transition away from 
Assad. And the connective tissue, we hope, between the two of 
those, the strategy on the one hand and ultimately the policy 
objective on the other, is to do what we can to support the 
Syrian elements within the population that can both defeat 
Daesh and be credible voices in the political transition.
    So I think Secretary Kerry is trying to leverage that 
opportunity. I think the Russians have both given us an 
opportunity and a challenge in that regard, and I am not giving 
the Russians any credit for what they have done. But the point 
I am trying to make is that the Russians are going to find 
themselves, I think in the relatively near future, in a very 
difficult situation. It is going to be very difficult for them 
to disengage or ultimately to justify their presence in Syria 
and for a whole variety of reasons. And I can be more expansive 
on that, if you like.
    But I do not think Assad is in a particularly strong place. 
I think the Russians intervened because Assad was teetering on 
the edge. I think the Russians are attempting to assist him to 
be stable and perhaps to protect and recover the Alawi 
heartland. And we had hoped that the Russians would help us to 
reduce the violence in Syria. But I think what they are 
discovering relatively quickly is that if they are not part of 
the political transition, for a long term, they are going to be 
part of the problem, and that problem is going to come to roost 
for them in ways that will make it very difficult.
    So it is a complex situation at various levels, and I think 
what Secretary Kerry is seeking to do is to leverage any 
potential opportunity that we have right now to begin the 
conversation that can put in place a process of political 
transition.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Well, thank you again very much, both of 
you, for your testimony.
    First, Secretary Patterson, I just want to underscore one 
point you made with a comment, and that is that one of our 
objectives is good governance and human rights issue. And as we 
start to talk about a negotiated settlement in Syria, if 
President Assad is not held accountable for his war crimes, it 
will be a clear message that we are going to see this scene 
play out again somewhere else in that region. And I just urge 
you that the way that the United States must provide leadership 
is to make it clear that we understand Syria's future will be 
without Assad. That has been a clear message that we have made. 
But it is also important that President Assad be held 
accountable for the atrocities that he has committed against 
his own people.
    You said in your testimony that we believe Russia's 
decision to intervene militarily in Syria is a losing bet. They 
know full well that there is no military solution in this 
conflict.
    General Allen, you have said the same, that we have to move 
toward a diplomatic resolution--and in Russia's case, they 
clearly have intervened militarily to bolster the Assad regime. 
All the information that we have seen is that the interest in 
ISIL is secondary at best, and that their primary interest has 
to do with the stability of the Assad regime, which is contrary 
to a lot of our military interests in that region.
    So Secretary Carter indicated yesterday before the Senate 
Armed Services Committee that changes to the U.S. strategy are 
underway. General Allen, can you share with us how our military 
strategies in the region are being reevaluated, recognizing 
that there is no military solution here? We need to get a 
diplomatic solution. How do we readjust our military strategy 
in order to reach that objective?
    General Allen. Thank you for that question. I would say a 
couple things.
    First, we see Daesh as a regional issue. We try not to view 
Daesh as a segment that is in Iraq and a segment that is in 
Syria. And as is the case, in an environment where we had to 
deal with Daesh--my point a moment ago. I talked about how far 
we have come in a year where Daesh was, for all intents and 
purposes, splintering Iraq in an irreconcilable way, had 
already done enormous damage to Syria. We really took them on 
head on, for all intents and purposes. And the intent of the 
first year of this coalition and our operations was to grind 
them to a halt, stop their momentum, and set the conditions 
ultimately to begin the process of containing, degrading, and 
defeating them. And that is really what has been underway for 
the first year.
    And I think what Secretary Carter is referring to is that 
we find ourselves now in a position where we are able to bring 
pressure to bear on Daesh, if you will, around its periphery. 
So, for example, the bilateral agreement that we have entered 
into with the Turks to facilitate the closure of the border, 
the final 98 kilometers of the border, to empower Syrian 
opposition elements to drive on and to pressure Raqqa, to 
empower Syrian elements to push south from Hasaka, to pressure 
other Daesh areas, in Iraq to see that the peshmerga, who have 
been so effective, continue the process of pushing out and 
interdicting key lines of communications between Mosul and 
Raqqa, to recover Bayji, to pressure and recover Ramadi--all of 
those activities is what we are seeking to accomplish 
simultaneously.
    Senator Cardin. But is it more complicated today because of 
Russia's military escalation in Syria?
    General Allen. Not really. Not really. The Russians are 
operating primarily in the northwest of Syria and along the 
spine of Syria, which is well west of most of Daesh. We would 
have been, I think, happy if the Russians had truly joined us 
in what they said they were going to do, which was to deal with 
Daesh. But the vast majority of the targets that they are 
attacking and the vast majority of the assistance that they are 
providing is to stabilize the regime and to attack other 
elements of the Syrian population besides Daesh. And that would 
have been helpful, but that is not what is happening.
    Senator Cardin. In regards to the anti-ISIL campaign, 
Russia's presence has not been a major problem. In regards to 
dealing with the underlying problem in Syria, the fact that 
they are so active in fighting the opposition, I assume, 
Secretary Patterson, that does present a challenge for us?
    Ambassador Patterson. Yes, sir, Senator Cardin. But it may 
also present an opportunity, and that is what the Secretary is 
trying to leverage. I think it is important to remember that 
Russia went into Syria because Assad was weak and under very 
considerable pressure from a variety of directions. And I think 
they will soon find out that the entire Sunni world is against 
them. We have heard from many of our gulf partners that in 
terms of jihadis and extremists, they have not seen anything 
yet because they will be drawn into Syria in even greater 
numbers to fight against the Russians. And, of course, the 
Russians have their own problems with domestic extremism and on 
their border. So they may find out that this is not such a good 
deal as they had anticipated.
    Senator Cardin. Secretary Patterson, switching gears to 
Iran for one moment, in the post-Iran deal environment, can you 
share with us what steps are being taken to deal with the fact 
that Iran is moving, I think, more promptly than we had 
anticipated in order to obtain sanction relief? We know that 
they participate and sponsor terrorist activities. What steps 
are being taken to trace Iran's activities, which will be 
enhanced by sanction relief, and to counter their nefarious 
activities working with our partners to make it clear that we 
will not tolerate that type of activity?
    Ambassador Patterson. Thank you, Senator Cardin.
    Chairman Dempsey testified in front of this committee some 
months back, and what he said was I thought very well put, 
which was along the lines of the nuclear agreement is just one 
of the elements or the nuclear capacity one of the elements 
that we have great concerns about.
    The first step we have taken, Senator Cardin, is to work 
very closely with Israel and with our GCC allies to help them 
combat this Iranian threat. And we are under no illusions about 
what Iran is doing in the region. And, in fact, some of their 
activities have stepped up in recent months. But we are working 
with our GCC colleagues on issues like protection from cyber 
incursions. We are working with them on an antiballistic 
missile defense system. We are working with them on things like 
special forces training. We have a very robust intelligence-
sharing effort with our GCC allies and, in fact, have helped 
them counter some Iranian terrorism, extremist terrorism, on 
their soil. So we have a lot of activities underway. We have a 
very specific intelligence focus. We, of course, have our large 
military presence in the Persian Gulf and the Gulf of Aden. So 
we are very mindful of Iranian adventurism in this region.
    On the financial side, we have continued to designate--I 
think we have designated 44 designations since this was 
underway. So I think we are taking steps to----
    Senator Cardin. Will be monitoring their activities, 
considering sanction relief will give them an opportunity 
perhaps to help their own people but also to increase their 
terrorist activities and sponsor----
    Ambassador Patterson. Very much so. We think when the money 
is released--the Iranian economy is simply in shambles, and 
there will be a very great demand I think to provide for their 
own people and to rebuild energy infrastructure and other 
public services. But we are very mindful that some of this 
money could be directed at their activities, for instance, in 
Yemen or in Bahrain, and we will be watching that closely.
    Senator Cardin. Prepared to take action, I assume.
    Ambassador Patterson. Very much so, sir.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Secretary Patterson, thanks for your 
service. General Allen, thank you for yours.
    Prepared to take action. There is a pretty interesting 
article written by Brett Stephens in the ``Wall Street 
Journal'' yesterday talking about Iran violations of U.N. 
Resolution 2231 and the new demands made by Supreme Leader 
Khamenei. I guess I would like to get your reaction to that.
    You know, the test firing of the new generation ballistic 
missile called the Emod--Mr. Khamenei's demands, as he wrote, 
were best described by Yigel Carmon and Ayelet Savyon and the 
Middle East Media Research Institute. Demand one: the United 
States and Europe must completely lift, rather than temporarily 
suspend, economic sanctions. Demand two: sanctions against Iran 
for its support of terrorism and its human rights abuses must 
also go. Mr. Khamenei is changing the timetable for Iran to 
ship out its enriched uranium and must modify its plutonium 
reactor in Arak, changing the timetable on that. And he also 
reiterates his call for a huge R&D effort so that Iran will 
have at least 190,000 centrifuges when the nuclear deal 
expires.
    Secretary Patterson, you said that the administration is 
under no illusions about what Iran is doing. It seems like that 
whole agreement--I think you are under an illusion. You really 
delude yourself in terms of what Iran is really going to be 
planning on doing here. They have been emboldened by this 
agreement. I am not seeing any kind of modification to the 
positive of their behavior. I see it to the negative.
    General Suleimani, days after the agreement was reached, 
flying to Moscow. Then we see Iran and now Russia cooperating 
in Syria. By the way, I do not see them wanting to disengage 
from Syria. I think they want to be embedded.
    So how are we going to act?
    Ambassador Patterson. So, Senator Johnson, let me try and 
answer this question about Iran. We know that there are 
enormous tensions within the Iranian Government, from Rouhani, 
who was elected--I will not exactly say a reformist agenda, but 
at least he realizes that the Iranian people have to see some 
benefits. And again, the economy was in an absolute shambles. 
They had to respond. Sky-high inflation rates, a contraction of 
25 percent in the past few years. So there was enormous 
incentive to try and restore the economy. And then there are 
the hardliners from 1970 who really have not evolved since 
1979. So there is enormous tension in their body politic, and 
that we will see playing----
    Senator Johnson. But again address the actual behavior that 
we are going to see.
    Ambassador Patterson. Let me----
    Senator Johnson. We are about to see tens of billions of 
dollars being interjected----
    Ambassador Patterson. Let me address----
    Senator Johnson [continuing]. Into the economy possibly but 
in the military of our self-proclaimed enemy. How is that going 
to turn out well?
    Ambassador Patterson. Let me give you one example.
    Senator Johnson. And what is going to be the reaction?
    Ambassador Patterson. Let me give you one example, and that 
is the ballistic missile. And I read Mr. Stephens' article. I 
actually read Mr. Stephens a lot.
    So we think it is entirely possible that this is a 
violation of the U.N. resolution that you mentioned. And how 
this is handled is we have gone to the Security Council. We 
asked for an appointment of a group of experts. This is the 
procedure. The experts will report back to the Security 
Council, and then we will decide what action to take.
    Senator Johnson. And we will continue to lift the 
sanctions. We will allow tens of billions of dollars to be 
injected into the military----
    Ambassador Patterson. Senator Johnson----
    Senator Johnson [continuing]. Of our self-proclaimed enemy. 
Correct?
    Ambassador Patterson. I agree.
    Senator Johnson. Are we going to stop that any way, shape, 
or form?
    Ambassador Patterson. Well, there is a snapback. We can 
stop the sanctions relief at any time.
    Senator Johnson. Will we? The question is will we.
    Ambassador Patterson. Of course, if they are in violation.
    Let me also say about the ballistic missile defense. Here 
is where we are trying to work with our allies. We have worked 
the GCC countries very intensely in the past few weeks to 
develop a regionalized ballistic missile defense system. So we 
are taking steps with Iran, but we are also taking steps so our 
allies can better counter these aggressive steps by Iran.
    Senator Johnson. So we are looking at an arms buildup in 
the Middle East as a result of the Iranian deal is what you are 
basically describing here.
    Is the administration happy with the results? Is the 
administration happy with what Iran's actions are following the 
Iranian agreement?
    Ambassador Patterson. Senator Johnson, the administration 
is under no illusions, nor is anyone----
    Senator Johnson. It seems as though they are.
    We were told yesterday that Iran actually wants a secular 
Syria. Do you agree with that? Do you think Iran wants a 
secular Syria? Do you believe that is true, that Iran is 
looking for a secular Syria? Is that why they are involved in 
Syria?
    Ambassador Patterson. I do not ???know??? whether they are 
looking for a secular Syria or a religious Syria. What they are 
looking for is a Syria that protects their interests and 
particularly their access to Hezbollah.
    Senator Johnson. General Allen, again, I appreciate your 
service. I realize that as a military man, you have certainly 
been constrained. It is complex. I have been told by a number 
of people, you know, military experts--I am not one--that 
although difficult and obviously with sacrifice, if we were 
really willing to bring everything we could bring to bear 
against ISIL or Daesh, we could defeat them militarily 
relatively easily. But again, we have been constrained by the 
fact that we certainly will not put boots on the ground. We 
have not really got a coalition that is really putting the type 
of military assets to bear against ISIL. What would it take? I 
mean, is that true? Is what I am hearing false? I mean, do we 
have to be patient? Or do we have to be patient because we are 
not willing to bring the assets to bear to actually defeat them 
sooner rather than later?
    General Allen. To be very clear, of course, it is the role 
of the chairman and the Secretary to bring these kinds of 
recommendations to the President. So that is out.
    Let me make a couple of points.
    The United States has unparalleled military power in the 
world today. It is enormously effective. Our capacity to 
generate and to deploy that military power is unquestioned and 
irresistible, if we chose to do that.
    In dealing with this crisis, you have to ask yourself one 
of two questions. The first is to do it yourself or to empower 
the indigenous forces to do it for themselves. The result of 
the first is that you find yourself with large numbers of your 
forces and large numbers of casualties and some extended period 
of time on the ground in an area that is already destabilized 
and with the very great likelihood that the kinds of antibodies 
that will be formed against the United States there will make 
it very difficult if not impossible for us to pull out in any 
short period of time.
    The alternative, though, is to empower the indigenous 
forces, which is the course that we have taken. It is less 
satisfying up front because we have not been able to deliver 
the massive capacity of the American military machine against 
this enemy. And we would love to crush these folks. Please let 
me finish, Senator.
    So in doing that, what we are seeking to do is to build the 
capacity of those indigenous forces, whether they are Iraqi 
Security Forces or they are the tribes or they are our partners 
on the ground in Syria, in whatever way possible so that when 
the solution is ultimately achieved, it has been achieved by 
the people that have to live with it. And that is a very 
effective way of doing it as well.
    The first gets you the outcome that you look for in a 
relatively quick process, but the tail end of that is a very 
difficult outcome. The other takes longer to gain momentum and 
ultimately to achieve your objectives, but when you have 
achieved your objectives, it is the people themselves who have 
achieved that objective. And that is what we seek to accomplish 
in this case.
    Senator Johnson. Just very quickly. What about the middle 
ground, assembling a coalition like we did with the first gulf 
war where, yes, the United States provided about two-thirds of 
the troop strength, about a half a million soldiers, but 
coalition partners, about 250,000. Coalition partners paid for 
85 percent of their effort. That was a true coalition that was 
obviously very effective. We are really not assembling that 
type of coalition. If we did, just a real quick question, how 
quickly and what would the troop level be? What would we need 
to actually defeat ISIS sooner rather than later?
    General Allen. I will not speculate on the troop-to-task 
requirement there. I think we can simply assume that if a 
coalition sought to put together the kinds of combat power that 
was put together for Desert Storm, the outcome would be 
different than it is today. But the result of the liberation of 
Kuwait was that we were able to hand Kuwait right back to the 
Kuwaiti people who then ultimately governed it. We do not have 
that kind of a partnership on the ground in Syria, and we are 
desperately attempting to hold on and to develop the capacity 
of the Government in Iraq so that it in the end is able to 
govern a territorially restored and a sovereign Iraq.
    So we are seeking an outcome of two different environments, 
two different operational environments. And the one coalition 
worked very well for that moment, and President Bush was wise 
and his administration put that together very well. This is a 
different environment, an environment where, when we are done, 
we want the solution to this crisis to have been handled and 
ultimately solved by the people that have got to deal with it 
to begin with.
    Senator Johnson. Thank you.
    The Chairman. Before I move to Senator Menendez, on U.N. 
Security Council Resolution 1929 that Iran definitely just 
violated--I do not think there is any question about that--we 
know that Russia is going to block any action being taken. I 
know you are going through the steps that are necessary, but we 
know they are going to block. And I think what the vast 
majority of people on the committee want to know is: knowing 
that we know the outcome before it starts, that there will not 
be sanctions, there will not be penalties put against Iran 
because Russia will block them, we want to know unilaterally 
what the United States is going to do because we know 
functionally nothing is going to happen at the U.N. I think 
that is the question we all have. I think you will have another 
letter coming from the vast majority of us soon wanting you to 
spell that out. So I think there was a little bit of a----
    Ambassador Patterson. Confusion there. Okay, sir. Yes, 
absolutely. I mean, we know that Russia is going to block this. 
So the real question is, Senator, unilateral sanctions.
    The Chairman. That is right. And there is not a snapback 
around this particular issue.
    Ambassador Patterson. No, no. But we will go through the 
process at the U.N. Security Council and the panel of experts 
and then decide what we are going to do.
    The Chairman. All of which we know will lead to a dead end, 
and therefore, we are going to have to take unilateral action 
or we are going to begin the process by letting Iran violate on 
the front end of the very agreement that was just negotiated. I 
mean, that is kind of where we are. And we know that. And so we 
would like something a little more clear coming from the 
administration.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    Let me thank both of you for your service to our country. I 
truly appreciate it. And I want my questions to be viewed with 
the full respect that I have for both of you, but trying to 
pierce the veil of optimism and understand where that optimism 
flows from because both of your testimonies were pretty 
optimistic.
    I would like, Madam Secretary, for you to explain to me not 
where supposedly the confluence of Russia's and Iran's 
interests are with us in Syria but where they diverge.
    Ambassador Patterson. Senator Menendez, they diverge in all 
sorts of ways.
    Senator Menendez. Give me some examples.
    Ambassador Patterson. The Iranian presence there, of 
course, as I believe I mentioned, is to ensure a role, a 
continuing role, for Hezbollah in the region. That is obviously 
a high priority. The Russians are there not only to shore up 
Assad but also to exert regional influence and to preserve 
their naval base at Tartus. So those are two obvious ones in 
which they differ.
    Senator Menendez. So what I am trying to understand--and I 
believe there are more that they diverge on because when I 
listen to the administration, I hear the aspirational goals of 
the convergence of Russia's and Iran's interests in Syria that 
somehow make them potential partners. And it seems to me that 
if what Russia wants, for example, is the permanency of their 
naval base there and influence--I do not know about the region 
because that is one of my concerns here, what we are allowing 
after 45 years of Democratic and Republican administrations 
seeking to close the door on Russia's sphere of influence in 
the Middle East, it seems to me like we are swinging it wide 
open. And that is a concern.
    And so if Russia just wants its base and influence in 
Syria, that is something that I am sure we would have 
negotiated without having to have gone to the depths of the 
crisis we have. If Iran truly wants a secular Syria, which I 
find incredible to believe, then that is something we could 
have negotiated for some time. We did not even need a nuclear 
accord for that. So I find it difficult to understand how Iran 
and Russia are going to end up with the same end goals that we 
have at the end of the day, which is Assad has got to go at 
some point and now it is after a transition. We want a unified 
country. We want a country that all people can live in.
    So how does that reconcile with Russia wanting greater 
influence in the Middle East, which is the message he sends 
when he has Assad visit him in Russia? That message is you have 
to come through me at the end of the day to the region. And so 
all of a sudden, we see regional partners flocking to have 
conversations with Russia, whereas basically their 
conversations were largely with us and our partners in this 
coalition.
    So I think we are opening the door to an influence that is 
not going to serve us well.
    Ambassador Patterson. Senator Menendez, I respectfully 
think the prospects for Russian influence in the region are 
exaggerated. Our allies in the gulf, for instance--and a number 
of them have paid visits to Moscow recently--live pretty 
securely, very securely under a large United States defense 
umbrella that protects them from Iran and from other threats. 
They know, because they are not stupid, that the Russians 
cannot replicate that. They know that the Russians may supply 
some military equipment, but they also know that the partner of 
choice for their military development is the United States. So 
while, yes, we see them pay visits to Moscow, I do think that 
the chances for Russian penetration of the area are frankly 
exaggerated.
    Senator Menendez. Okay, so you do not have that concern. If 
all Russia wants and all Iran wants is the same main goals as 
we want, why have we had to have thousands of people die, 
millions displaced, and at the end of the day, we could have 
negotiated the same opportunity that we are now talking about 
negotiating with these two countries?
    Ambassador Patterson. Senator Menendez, I do not think we 
ever said that we had the same goals. I think what we said is 
there could be a congruence of interests that could well, in 
fact, be temporary----
    Senator Menendez. At the end of the day, if your interests 
ultimately do not end up in the same goals, how does the 
endgame end up being the one that you want to see? You are 
inviting these two countries to engage with you because at the 
end of the day I would have thought that the end result of what 
we want is going to be shared by these two countries. If not, 
why would you ask them to be involved if the end goal is not 
going to be achieved with them?
    Ambassador Patterson. Well, from a practical matter, 
Senator, they are there on the ground. So they have to be 
involved in the process. And I think, of course----
    Senator Menendez. Okay. So before they were on the ground, 
when Russia now got engaged--and by the way, you said that Iran 
is going to need all this money for domestic purposes, but Iran 
has upped its participation in Syria even in the midst of the 
economic difficulties it faces, which is counter to the 
argument that when they are flush with money, that they are 
going to use that all domestically because when they are 
lacking money, they are still engaged in upping the ante as 
they are with Hezbollah and their participation inside of 
Syria.
    Ambassador Patterson. Senator Menendez, the Iranian and 
Russian involvement in Syria is nothing new. So this is, yes, a 
question of degree and a question of acceleration, but it is 
certainly nothing new. They have both been there for years and 
they have been active for years. And it is not a question that 
our interests coincide across the board. It is a question--and 
this is what Secretary Kerry is trying to do is to find an 
opening that he can leverage and not just with the Russians and 
the Iranians. Remember the Saudis and the Turks and a wide 
range of Europeans who are being decimated, who are being very 
seriously affected by this refugee crisis, are also involved in 
this process and trying to find an opening through when he can 
move a diplomatic solution.
    Senator Menendez. Well, the purpose of leverage is to come 
to the ultimate goal that you have. And you have said to me 
that while they may have interests, at the end of the day, they 
do not share our ultimate goal. So I find it difficult how we 
get to the ultimate goal of what we want to see in Syria with 
partners who do not share our ultimate goal, who may have 
interests, but at the end of the day, their interests may not 
be sufficient to ultimately be assuaged or taken care of and 
then still have our ultimate goal. I do not get it.
    But let me just make one comment because my time is up and 
I want to be courteous to my colleagues.
    On the question of Iran's ballistic missile tests, this is 
a critical test of the administration's willingness to 
challenge Iran when it violates international norm. And if it 
fails to do so, it will send Iran a message that the 
international agreement that they signed can also be challenged 
and violated with impunity. And I do not see the difference 
because you have Security Council resolutions that call for 
Iran not to have had the missile test that it did. It freely 
did it, blatantly did it. And it seems to me that Iran's view 
is that the expectations or aspirations of the United States to 
make it a partner will ultimately overlook their violations, 
and if that is the case, we are in an incredibly dangerous 
period.
    So I hope that regardless of what happens at the U.N., 
which--I agree with the chairman--will be a dead end, that we 
are poised to act by ourselves and hopefully in concert with 
other countries who may feel the same as we do in actions that 
send a very clear message to Iran because otherwise the nuclear 
agreement is bound to be broken time and time again.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Thank you and thank you for your testimony.
    I would like your candid assessment. And I am not making a 
value judgment on the direction it seems that we are going. I 
am not sure that we have that many options. But we are talking 
now on the transition in Syria, which would be started with 
Assad in place, but would not end with Assad in his place. How 
realistic is that assumption that we can back a transition like 
that and assume that he will begin the process but not end the 
process?
    Ambassador Patterson. Senator Flake, I think yesterday the 
Secretary said that it would be extraordinarily difficult--this 
process. And we have been trying to do a version of this, and 
many of the elements in the transition process were laid out in 
this Geneva Accord several years back.
    But I think there is certainly renewed impetus to undertake 
this again with the Russian involvement, with the refugee 
crisis in Europe. Sure, I think it will be very hard. But Assad 
cannot remain in place because he is fundamentally 
destabilizing, and we will not be able to effectively combat 
ISIL if Assad remains in power. But it is going to be hard, of 
course.
    Senator Flake. General Allen, do you have any thoughts 
there?
    General Allen. I agree with the Assistant Secretary. I 
think this is going to be difficult, but I think beginning the 
process of the conversation is worth the effort frankly.
    Senator Flake. Assistant Secretary Patterson, give some 
sense of where the EU is and how much more motivated perhaps 
they are now after the refugee crisis has reached its kind of 
peak--hopefully its peak? How much more motivated are they to 
help seek a solution with our partners there?
    Ambassador Patterson. Well, they seem very focused on it, 
shall I say. Yesterday, there was a meeting in Paris that Tony 
Blinken attended and then there is this meeting in Vienna that 
will involve not only the EU but also the major European 
powers. So I think the refugee crisis, which has potentially 
very disruptive effects for Europe--I think we have seen a 
renewed interest on their part.
    Senator Flake. General Allen.
    General Allen. They are very focused on it, Senator. And I 
think that the concerns that they have, both in terms of the 
effect on their societies, their border control--all of those 
things, I believe have focused them very significantly on this, 
which is not just an issue for Europe, but it is also an issue 
of their renewed willingness to work with us within the 
coalition as well.
    Senator Flake. Do they have any demands that we do not 
have? Are they entering in with the same--obviously, they 
understand the difficulties, as you put it, of starting this 
process of diplomacy here. But are they comfortable with what 
seems to be the framework given the reporting that we have seen 
that we would be comfortable with a transition period that 
would start with Assad remaining in power? Are our European 
partners comfortable with that?
    General Allen. Well, it is difficult to make a 
generalization for all our European partners, but I believe 
that the process that Secretary Kerry seeks to undertake will 
take us through the modalities for that transition. And there 
will be various voices that will be raised in that process as 
to whether, yes, to go immediately or goes during the 
transition or has gone by the end. That will be worked out as a 
modality in the process. But I strongly believe that our 
European partners, whether in the coalition or just the EU as 
an entity, are keenly interested in this political process. We 
are clear that this is not going to be resolved in a military 
sense in Syria. And if this is an opportunity, if this is the 
moment when that conversation can begin to bring all of the 
relevant external players to the table to begin that 
conversation, this is an opportunity that we should seize.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. Thanks to our 
witnesses.
    Since the beginning of the war on ISIL in August 2014, we 
have seen United States troop deployment levels increase. We 
have seen deaths of U.S. citizens, first the execution of 
American hostages after the bombing began in August 2014, then 
the death of American servicemen who were deployed in the area, 
not combat-related deaths, and then sadly the death of Master 
Sergeant Wheeler last week. We have seen ISIL growing into more 
countries, originally Iraq and Syria, but now ISIL claimed 
presence in Afghanistan, Libya, Yemen, Somalia. And then we 
have just deployed troops to Cameroon to counter Boko Haram, 
which has claimed an alliance with ISIL. We have seen the 
acceleration of the worst refugee crisis since World War II 
with the Syrian refugees fleeing Syria in camps in neighboring 
nations. We have seen inflamed violence between Turkey and the 
Kurdish populations in Turkey and northern Syria. And now we 
have seen the Russian military entrance in an accelerated way 
into the theater in Syria.
    We had testimony yesterday in both Armed Services and 
Foreign Relations hearings from Secretaries Kerry, Carter, and 
General Dunford, and while some of that was in a classified 
setting, I am going to be delicate about the way I describe it. 
The thrust of the testimony seemed to be, as I listened to both 
sets of testimony, that we are about to and it has been 
reported that we are considering--we are about to additionally 
escalate U.S. military activity against ISIL and that that will 
have a cost and that will likely take some time.
    Would you agree that the stated mission that the United 
States has of defeating ISIL is one that is going to take some 
significant period of time?
    General Allen. Senator Kaine, I agree with that, and we 
have said that all along. The countdown of issues that you have 
presented us, the witnesses, are an accurate accounting, and 
those are going to have to be addressed not just with regard to 
Daesh but more broadly, as the Assistant Secretary has sought 
to portray this morning, in the context of regional stability 
and ultimately addressing some of those causal factors that 
create the instability that give rise ultimately to 
organizations like al-Qaeda and Daesh because as you correctly 
point out, the emergence of what we would call ``global ISIL'' 
has been less about the spontaneous development of ISIL as an 
organization that we know in Iraq and Syria than it has been 
the potential for the creation of connectivity between existing 
groups in various places, each of which emerged from the fabric 
of society there because of various causal factors. So the 
ability of Daesh to gather them together in a network is 
something that we are obviously very attentive to right now 
with the idea of how we can both deal with the branches, deal 
with the network while we continue the process of dealing with 
the platform, which is the core ISIL platform in Iraq and 
Syria.
    Senator Kaine. While I do not mean to undermine the fact 
that there have been some successful efforts that the United 
States has undertaken--I am going to get to one of those in a 
second. I go through the litany just to show that frankly since 
August 2014, the ISIL threat has been growing and mutating and 
spreading, and that means that the United States effort vis-a-
vis ISIL, which this Congress should oversee and in my view 
authorize, is going to also have to grow and spread and it is 
likely to take some time.
    But let me move to an area where we have been successful 
but even success has its challenges, and that is in our 
partnership with the Kurds. I was in Erbil in July and was very 
impressed with the cooperation between the United States and 
the peshmerga in military operations in northern Iraq. And then 
in Ghaziantep discussing our operations there, we had some 
success in working with the Kurds in northern Syria as well. 
But no success does not have the worm in the apple. There has 
been an inflamed tension between our NATO ally Turkey and the 
Kurds right on that border and atrocities back and forth across 
the border.
    How do we propose to maintain the partnership with the 
Kurds in northern Syria that has been somewhat successful 
militarily while also maintaining the level of cooperation we 
need to with Turkey to shut the border and do the other things 
that they are doing to battle ISIL?
    General Allen. That is one of the most complex challenges 
that we face right now. We discovered the potential for the 
relationship with the YPG last year when you will recall 
Khobane was unfolding. And the many different defenders of that 
city were supported successfully. Many defenders. It was not 
just Kurds. There were others in that city as well. And in the 
aftermath of that discovered that the Syrian opposition 
elements in that area, Kurds and others, could, in fact, be 
empowered and advised ultimately to deal with Daesh, to recover 
the border, and to seal the border from infiltration from Daesh 
from Turkey into Syria.
    At roughly the same time in July, when we completed the 
agreement with Turkey to open their airbases and to close the 
final 98 kilometers of the border, that is when the problem 
with the PKK lit off inside Turkey. And you are correct. Turkey 
is an old friend. It is a treasured NATO ally, and the PKK went 
to work inside Turkey once again, and the Turks responded. And 
we supported the Turks. PKK is a designated organization. And 
the Turks did, in fact, take steps to defend themselves. But we 
worked with the Turks in a very delicate, diplomatic process 
for us to maintain the relationship with the PYD and the armed 
wing, the YPG, south of the border so long as there was no 
aggression across that border one way or the other. And we have 
worked very hard to try to manage that.
    There has been some reporting very recently that there 
might have been some. We are not entirely sure that is 
accurate, so we are watching it very closely because of the 
implications in Ankara and the potential tension that we have 
with the Turks over this real opportunity to take advantage of 
the capacity of opposition elements in Syria that can, in fact, 
liberate large segments of the population and the region from 
Daesh.
    So we are going to watch this very closely, and it requires 
that we acknowledge the very delicate, diplomatic relation that 
we have with Turkey over this issue. And Turkey, of course, is 
attempting to defend itself from the PKK, at the same time 
manage the border and our relationship with relationship with 
the YPG. And I think we have worked well with them at this 
point.
    Senator Kaine. Just one last point. I would like to 
underline ????? made by colleagues about the importance of 
United States action against Iran vis-a-vis the missile test. I 
actually have a slightly different diagnosis than my 
colleagues, but almost an identical prescription. I think that 
the missile test was less about threatening the United States 
as it was about the internal battle in Iranian politics. A big 
chunk of the Iranian Government love this deal and a big chunk 
of the hardliners hate this deal. One of the chief negotiators 
of the deal was threatened on the floor of the Iranian 
Parliament by a member of Parliament saying, we will kill you 
for what you have done. And that tension between the hardliners 
who hate the deal and the reformers who want to achieve the 
deal--I think that explains the missile test.
    I do think we need to take action immediately to show that 
we are not going to be pushed around, and it will be the test 
of our willingness to implement the deal. And we need to do it 
in a way that empowers the reformers who want the deal and 
further marginalizes the hardliners who oppose it. And this is 
especially important from a timing standpoint because of 
Iranian elections in early 2016. So I agree that we need to 
take strong action.
    The Chairman. If I could, since you brought that up, I 
think one of the concerns that many had with the Iran deal is 
that it is not a country that controls its infrastructure in 
the same way that we do. And Soleimani----
    Senator Kaine. That assumes a fact not in evidence, Your 
Honor.
    The Chairman. Yes. But the point is I think that probably 
you are right. But the fact is there is an incongruence there 
within the country that means that some factions would want to 
cheat and do some things as they did. And I agree the 
prescription is the same. We need to push back.
    I think that the administration could be frozen like they 
have been with Syria with decision memos, decision memos, 
decision memos, and no action. I fear that is what is happening 
right now on this particular issue. And hopefully, collectively 
we can push so that that does not become reality here soon.
    Senator Cardin. Mr. Chairman, let me just point out. I 
think there is unanimity I would think on this committee to the 
point of making sure that Iran is held to the strictest 
compliance with all of its international agreements. It really 
does not involve whether we support or oppose the Iran 
agreement. We want to make sure that there is strict 
compliance. And the violation of the U.N. resolution, the clear 
violation of the U.N. resolution, requires U.S. action with our 
willing allies to make it clear that we will not tolerate that 
type of infringement regardless of the reasons why the Iranians 
did it.
    The Chairman. And I would say regardless of where people 
were on the actual vote on the agreement, it is an agreement 
that is now in place. I think all of us want to ensure that 
Iran does not get a nuclear weapon.
    So with that, Senator Isakson.
    Senator Isakson. I want to associate myself with the 
remarks of the chairman and the ranking member both on the 
Iranian deal. Regardless of my vote or anybody else's vote, we 
have to be steadfast in seeing to it that they live up to their 
side of the bargain. If we do not, we are a paper tiger and 
there will never be any good diplomacy. Period.
    I want to follow up on what Senator Kaine said in his 
timeline about 2014 and ISIL, and I want to take it back one 
additional year to 2013 because it was October 2013 when the 
administration declared it was going to make a limited strike 
against Assad because he crossed the redline that had been 
drawn in the sand in Syria. The Congress, not this committee, I 
might add, but the Congress kind of backed up on that and did 
not give him the support. And the administration, although they 
could have gone ahead and made a limited strike under the War 
Powers Act, decided not to. So we became a paper tiger at that 
particular point in time. That was in 2013.
    In 2014, ISIL knew we were getting ready to leave Iraq open 
in terms of any American troops being left there. We created a 
vacuum in Iraq, which ISIL immediately filled by claiming 
territory. We are taking some of it back now with our coalition 
partners, but the fact is we took a terrible setback because we 
withdrew entirely from Iraq.
    So the beginning of my statement is, I think we have made a 
mistake--we, Republicans and Democrats, the administration, and 
Congress--by backing away from doing a military lesson in Syria 
in 2013 when we had the opportunity and there was a clear line 
that had been drawn in the sand.
    I understand the need for diplomacy and I prefer diplomacy 
any time over war. I lose every war I ever have with my wife. 
With diplomacy I sometimes can win. So I think it is important 
to have a good diplomatic solution. But diplomacy only works 
when there is a threat of force otherwise.
    Yesterday in the Armed Services Committee, General Dunford 
and Secretary Carter said that the door was open for more--and 
I quote--``direct action against ISIL.'' That is an ``eyes of 
the beholder'' type statement, but at least it sends the signal 
that they may be looking at other options in terms of ISIL. And 
I think ISIL is the focal point upon which a military action or 
an expansion of military action is not only appropriate but 
instructive in helping us with diplomacy everywhere else, 
personally.
    The spoils of war and ISIL has won in terms of the refugee 
issue. I just got back from Greece and Italy where we have seen 
a half a million refugees, 70 percent of them Syrian middle-
class people, flowing through Greece trying to get into Europe. 
The Hungarians are closing their border. We see a crisis of 
immense proportion going all the way to the country of Sweden. 
It is going to get worse next year than it is this year simply 
because of things that are taking place now.
    So my question--I am making a speech, and I apologize for 
that. But my question is if we do not consider forcefully and 
practically the use of force against ISIL to wipe them out 
militarily or to send such a clear signal to them they are 
going to be wiped out so that they back away, that cancer is 
going to continue to grow because you cannot reason with 
somebody that would cut off your head, burn somebody in a town 
square, destroy the antiquities of history of a country, or 
kill humanitarians. You just cannot do it.
    And I think we have got a great Air Force. I think the air 
strikes are fine, but you do not win this with air strikes. And 
we cannot let that cancer continue to grow because if we do, no 
diplomatic solution in any Middle Eastern problem is going to 
help.
    So I would just like for you to comment for just a second 
not necessarily on my premise on this but on what was said 
yesterday by General Dunford and Secretary Carter and if you 
believe a possibility to have a more robust military action 
against ISIL would have a positive result.
    General Allen.
    General Allen. Senator, I absolutely agree with what you 
have said. I have been around a little while, and I have never 
seen anything like this organization before in the depths of 
its depravation and its depravity. And this is an organization 
that we obviously have to deal with.
    I think the testimony yesterday from General Dunford and 
Secretary Carter pointed to recommendations and thoughts that 
they are going to provide to the President of the United States 
on the potential means to a deal or to enhance the means by 
which we want to accomplish the ends and direct action, as I 
was describing earlier, the idea of pressuring Daesh 
simultaneously around its periphery, which is we are setting 
ourselves up to begin to do that. One of the values of direct 
action is going after the nervous system inside. This is where 
no one on the planet does it better than we do, the targeted, 
direct action strike force-supported raid. And I will not go 
into the operational details associated with it, but I think 
that that is frankly a positive development in the thinking 
conceivably for how to deal with Daesh.
    And I will just make one key point. When our special 
operators entered the Abu Sayyaf compound last year, killed him 
and the other two that were in the meeting with him and wiped 
out his personal security detachment, and then arrested his 
wife, Um Sayyaf, who was responsible for the slave trade of 
ISIL, and liberated the Yazidi sex slave and took 7 terabytes 
of information off the compound, it was not because we just did 
that raid spontaneously. You can imagine that as we did in 
Afghanistan every night 10 to 15 times across the country, it 
was a well-developed mission, which had the very high 
likelihood of success when properly supported, and it not only 
accomplished the military objective. It accomplished an 
extraordinarily important intelligence objective as well. And 
other ISIL leaders have met their end directly as a result of 
the sensitive site exploitation coming out of the Abu Sayyaf 
raid. And I believe that is what the Secretary and the Chairman 
of the Joint Chiefs were describing yesterday. And if they are 
thinking in those terms and making that recommendation to the 
President of the United States, then I would certainly support 
it.
    Senator Isakson. Well, I appreciate your answer because I 
am up in 2016 for reelection, and a lot is going to happen 
between now and next November. But this is one person that is 
going to be a voice and a vote for a more aggressive stance 
against ISIL to see to it that we go after the enemy of all 
mankind, not just of the United States of America. And I know 
once terrorism came and that genie got out of the bottle, you 
are never going to put it back in. But, by golly, we should not 
tolerate it. We should give every effort the United States can 
do to destroy it in the most robust fashion possible.
    And I think it helps with diplomacy in Syria if you 
separate that action away from the Syrian people and Assad and 
target it strictly on the enemy which is ISIL which is Syria's 
enemy, as well as our enemy.
    General Allen. That is exactly correct, sir. I absolutely 
support your comment.
    Senator Isakson. And I know my time is almost up, but I 
want to thank Ms. Patterson for a statement you made, which 
was, I think, very telling and very honest and very candid, 
which you always are. The chairman asked you the goals of the 
administration in the Middle East, and you said 
counterterrorism, human rights, economic growth, and then you 
said all of which we are pursuing but we are being limited 
because of ISIL and we are kind of in a series of crisies 
management in the Middle East. And I thought that was a very 
honest answer because if you take any front page of any 
newspaper in America and go from day to day, it is another 
crisis in the Middle East, different from the crisis we had the 
day before. So counterterrorism and things like that are 
impossible to have strategies on when you are reacting on a 
daily basis to the forces that are at work.
    So I hope as a country we will use our military strength as 
an example of why diplomacy is a far better way to reach 
solutions in the Middle East than military solutions, but if we 
have to, we are prepared to do whatever it takes to see to it 
that the United States enforces and respects human rights and 
the rule of law in every nation in the world. Thank you very 
much, Ms. Patterson.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. Thank you to the 
witnesses.
    Last month, I got the opportunity to visit the men and 
women who have been running our train and equip program in the 
region. I have opposed this program from the start, thought it 
was destined to fail, but they, frankly, were doing a pretty 
miraculous job, incredibly capable people with a mission that 
was very, very difficult. And one of the reasons that it was 
difficult--and they testified to this, and there has been 
plenty of open reporting to say the same--was that we were 
recruiting individuals to fight only one of their two sworn 
enemies, that we were asking people to sign up to fight ISIS 
and essentially foreswear fighting Assad with our help. And 
thus, it was very difficult to recruit and ultimately was going 
to be difficult to control the forces that we had trained in 
the battle space.
    And so there is all this open reporting now--and Senator 
Kaine referred to it--about increasing our support for the so-
called vetted moderate Syrian opposition, whether it be with 
increased weaponry, whether it be with embedded special forces, 
or with air strike capability.
    And I guess my question for you, General Allen, is has 
anything changed. Can we successfully support the moderate 
Syrian opposition so long as our support comes with a 
significant string attached to it, that we will only support 
them if they are only fighting ISIS, or is the only way for us 
to be effective in an increased level of support for the 
opposition to admit that we need to help them fight ISIS, and 
we need to help them fight Assad at the same time?
    General Allen. The President has been clear that it is not 
his intention to support the moderate Syrians in a ``go to 
war'' strategy against Assad. We sought to support the moderate 
Syrians to be able to defend themselves. We have sought to 
support the moderate Syrians so that they could carve an area 
within Syria in which they were relatively secure, and to 
support the moderate Syrians to fight and ultimately assist us 
in defeating ISIL.
    But either the reality or the perception that they can only 
fight ISIL has been an impediment, and it has been difficult 
obviously in both the recruiting and in the development of the 
commitment necessary from Syrian elements to be committed to 
the program. And that was one of the difficulties with the T&E 
program. The groups that we are supporting today beyond the 
adaptation of the T&E program as it will evolve over time, but 
as we have evolved in the last several months the support to 
those other elements within Syria that we have found have the 
capacity both to fight and the will to fight has been by virtue 
of their location in Syria. Primarily our focus is on Daesh and 
their focus is on Daesh. So at this particular moment in the 
development of our relationships, this has worked out to our 
benefit.
    Senator Murphy. Secretary Patterson, does the 
administration have the authority to open up a front against 
Assad, should that be the recommendation in order to 
effectively recruit individuals into the moderate Syrian 
opposition or effectively coordinate with them? Is there the 
belief that there is legal authority right now to make a 
decision to empower the Syrian moderate opposition to fight 
both ISIL and Assad? Is this a legal question, or is this 
simply a strategic question?
    Ambassador Patterson. It is a legal question, Senator, and 
one that I am not qualified to answer really. But there are 
important legal elements of that, and we can certainly get 
somebody up here to answer that question for you.
    Senator Murphy. But the State Department has not made a 
determination that it does not have the legal authority. This 
it an open question within the State Department? Is that what 
you are suggesting?
    Ambassador Patterson. I would rather not speculate on that 
because it is a very complex legal issue and one that I have at 
least been on the periphery of very considerable discussion. So 
I would like to get somebody up here who is qualified to 
respond to you.
    Senator Murphy. General Allen, I thought you did about as 
good a job as I have heard anybody do in explaining the roots 
of the problem in the region. Of course, there is a military 
component to the fight against ISIL, but in the end, you cannot 
solve this problem unless you solve the underlying political 
realities of the region, which drive people to these extremist 
groups.
    And, Secretary Patterson, you talked about what is 
happening in Baghdad today, and I think you had some level of 
optimism. During that same trip, I got the chance to go to 
Baghdad, and I am not sure that I walked away with the same 
level of optimism about Abadi's willingness to reform. Sort of 
the reforms that he has suggested have been fairly paper thin. 
We have been hearing for a very, very long time about a Sunni 
national guard that they cannot get their act together to 
begin. The military is still effectively 95 percent Shiite. 
There is really no understanding now of how if we were able to 
take back Ramadi, that there would be an effective 
multisectarian or Sunni-led military force that could hold it.
    So the question is, I guess, for either of you. But it just 
does not seem like we actually have the leverage with Abadi 
right now to get him to take those tough steps to fully 
integrate the military to give the Sunnis some participation in 
a force that would ultimately hold these areas once we take 
back. Tell me what we need to do in order to get Abadi to take 
the next several steps. It is not just enough to replace a 
handful of Deputy Prime Ministers. He has actually got to make 
a commitment to reform the military, and that is not happening 
yet.
    General Allen. Let me make some broad comments. I was just 
in Baghdad and had the opportunity to meet with the Prime 
Minister, his national security advisor, and the Minister of 
Defense and Interior. I do believe that Prime Minister Abadi 
has been and continues to be a partner we can work with, given 
his predecessor and given the realities that we face today. He 
is an individual that we should be publicly and openly 
supporting, and I do not suppose that your question did 
otherwise. But he is someone that deserves our support. He has 
been very clear and open in his intent to institute these 
reforms, and frankly, he is encountering a lot of headwind in 
Baghdad right now in attempting to undertake these reforms 
because many of the very individuals that would be the most 
affected by those reforms are uniting politically to oppose 
those reforms. And it has created not just opposition to the 
reforms themselves, it has created an environment in which his 
status is even more tenuous.
    I think the important dimension that we should be aware of 
is that the support from Najaf has been very important for him. 
His Eminence the Grand Ayatollah, Ali al-Sistani, and the 
Marja'iyya have been very supportive of him. And that has given 
him some real capability to move this forward. But many of the 
folks that will be affected the most by the reforms are the 
ones who are either individually or collectively making it 
difficult for him to institute those reforms. But he remains 
committed to them. They are not going forward as fast as we 
would like. They are not having the kind of penetration that we 
would like, but he remains committed to those reforms.
    Let me talk just briefly about Ramadi because I think it is 
really important. Ramadi and the campaign in Al-Anbar benefits 
from lessons that we have learned in Salah ad-Din province with 
respect to Tikrit. And you are, in fact, correct, that much of 
the four columns that are converging on Ramadi right now are 
populated by troops that are Shia in orientation. And we had 
hoped that greater Sunni recruitment into the armed forces 
would come about. The conditions just are not there right now 
for the Shia population either to be contacted in large 
quantities or to be recruited in large quantities into the 
security forces.
    But the governor in A- Anbar is a Sunni. He is very 
supportive of his relationship with Prime Minister Abadi. He 
has a provincial chief of police who has done a great deal to 
recover the Sunni police of Al-Anbar. They are being trained. 
They are being equipped. They are being prepared, along with 
tribal fighters from Al-Anbar, to be the force that ultimately 
enters Ramadi once it is cleared to be the hold force that 
provides security to the population, that prevents the 
reemergence of Daesh in that population.
    So in the context of clearing forces, just by virtue of the 
dint of the demographic makeup of the Iraqi population, we are 
going to see a preponderance of Shia on the ground clearing the 
city. But we are already posturing the Anbari police and the 
tribal elements to come in right behind that ultimately to hold 
the ground and to secure the population. This is something we 
have learned from Tikrit, and this is something that we seek to 
apply in the follow-on aspects of the counteroffensive. And it 
is difficult, but it is an area where we are gaining ground I 
think.
    Senator Murphy. You all have an impossible job, but it sort 
of sounds like this is a record that we have heard before, the 
lack of political progress inside Baghdad and the lack of 
ability to integrate the military. I just hope that we are 
thinking of new means of leverage to try to change the dynamics 
inside Baghdad because I worry that we will be back here a year 
from now telling the same story about the political headwinds 
against Abadi having not changed. A difficult job, but I thank 
you for doing it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    General Allen, as the Special Envoy to Counter ISIL, I 
thought you probably just a few minutes ago made as direct, 
clear of an explanation as possibly can be made as to why this 
is important to the people of the United States of America in 
fighting the most depraved group that exists on the planet 
today and will go down in history as that in modern times. So I 
appreciate that. I think we all need to be more articulate in 
why this is important to America and to Americans. So I 
appreciate that.
    The second point that you made and I think most Americans 
do not fully appreciate is you described the military might of 
the United States. And I could not agree with you more. Most 
Americans do not understand just how powerful this country is 
when it comes to military might and how far we exceed every 
other nation on the face of this planet. And that is, it is not 
by a little bit. It is by a tremendous amount. No one can stand 
to us if it comes to that. We do not want it to come to that. 
We are not that kind of people. We want people to mind their 
own business and to go about their lives and to do good things 
and be humanitarian about it. But we occasionally get in a 
position where we wind up having to do something. And I think 
certainly ISIL is something that is demanding more and more of 
our attention in that regard, and that is unfortunate but it is 
a fact of life.
    The problem with the extension of what you have just said 
is because we have this military might, it begs the question of 
``so what?'' If everyone else in the world is convinced that we 
will not pull the trigger, what difference does it make? And I 
cannot tell you how much I have the feeling that the Russians 
are convinced of that. After watching what they did so brazenly 
this late summer, July and August, in Syria and coming in and 
doing what they have done, they have got to be convinced we are 
not going to pull the trigger.
    Here we have a group that we have chosen to support, as you 
have described, not to support to do certain things, but 
certainly to defend themselves. The Russians have come in and, 
as they have always done, they have used deception and denial, 
and they have attacked the very group that the United States of 
America has put under at least this umbrella that Anne 
Patterson has just described of defense. They have come in and 
they have attacked them brazenly. And what have they said when 
they were challenged? They said, oh, well, we are really after 
ISIL. Well, you know and I know because you have seen the same 
material that I have that their minimal attacks on ISIL are 
window dressing when it comes to what they are doing. I mean, 
they are beating the heck out of Assad's opposition. That is 
what they have done.
    So people are going to look at this, and they are going to 
say, well, yes, the United States has all this might, but what 
are they doing in response to an attack on their friends that 
they have chosen to help? They are going to have the war planes 
stay 20 miles away. I suspect if you were in charge there, you 
would not let that happen. But that is where we are with the 
situation, and something has got to change. You guys are in 
charge of this. I do not know how you are going to do it, but 
something has got to change.
    One of the problems we have, I think, is the fact that 
there is probably--and I have got to be careful how I say this, 
but there has been at least some acknowledgements in some areas 
that the White House feels that their legal ground may be 
tenuous. And I know, Secretary Patterson, you have just said 
this is not your bailiwick and you cannot answer the question. 
And I am sure that is true, also with you, General Allen.
    Senator Kaine has been a real leader on this issue. And 
that is before we can make these kinds of decisions, we got to 
know what kind of legal ground we are standing on. And there 
are two legal issues here involved. Number one, making war on 
Assad who we have said we want to see removed. Well, by what 
international standard or law are we saying we can do that? 
Here you have a country that is set up. Now, first of all, 
there is not anybody that disagrees that Assad is a bad guy and 
should go. But you still got to have legal authority to do 
that. And I have yet to hear a clear legal description of how 
we can justify doing that. I think that issue has got to be 
resolved if we are going to continue to be a nation of laws, as 
we claim we are.
    And secondly and just as importantly is the legal question 
of by what authority is the second branch of Government doing 
this. Senator Kaine has been eloquent in his descriptions of 
reticence on a lot of our part that this resolution from way 
back is being used to now use military force in Syria. This is 
a long, long way from what was authorized to be used against 
al-Qaeda way back when. And I think that has got to be 
resolved.
    I think once those two are resolved, I think there is going 
to be a much clearer path forward to getting a tactic and a way 
of accomplishing the goals that you have set. I think the 
administration has been clear in their goal. They want Assad to 
go. They want peace in Syria. But we ain't getting there. And 
so I think these two legal questions have got to be resolved.
    Well, my time is almost up. Let me just conclude with this. 
Secretary Patterson, with all due respect--and I mean that 
sincerely--I have heard you now over the last couple of days 
talk about how overstated the influence of Russia is in the 
region and, more importantly, how overstated it is as to how 
quickly their abilities and their respect is growing in the 
region. And you deny this by just saying, well, it is your 
opinion that that is overstated.
    With all due respect, everything around you, all the media, 
all of the people we meet with in the region very much counter 
this. I quoted to you what a former Ambassador from Saudi 
Arabia said yesterday that directly counters what you have 
said, and you pooh-poohed that and said, well, he does not 
speak for Saudi Arabia anymore. I think this is a dangerous, 
dangerous position for the United States to be in if they are 
taking the position of, oh, this is going to away. This is no 
big problem.
    So with that, my time is up. Thank you, Mr. Chairman. I 
appreciate the time.
    The Chairman. Thank you.
    The one question that I hope we will get to at some point--
the comments you made at the first part of your statement I 
agreed with strongly. But Europe, which is being decimated, if 
you will, by the refugees, seems to not share our concerns. I 
mean, they very tepidly, if at all, are even involved in trying 
to deal with the issue of ISIS and ISIL. Almost no involvement 
in Syria. So it is fascinating to me that relative to our 
involvement--that to me is fascinating.
    But with that, Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    General Allen, can you talk a little bit about the 
attitudes of the Shiite leaders of Iraq in terms of 
reincorporating Sunnis into the leadership in the country? We 
all know now that the single biggest mistake was the Bush 
administration decision to just remove not just the generals in 
the army but all officers that had anything to do with ensuring 
that there would be some continuity, you know, this 
deba'athification was taken so far that it polarized the Sunni 
community. So we know that the handpicked leader, the Shiite 
leader Maliki, back in 2006 that he unfortunately harbored 
those same sentiments and treated the Sunni population in a way 
that only continued the acceleration of that sense of isolation 
that the Sunnis have in that country.
    So can you give us a little bit of an update right now in 
terms of--let us take Tikrit. As Sunnis return to Tikrit, are 
they now allowed to assume leadership roles in the government 
in Tikrit? And could you give us kind of an outline of what 
those leadership roles might be that they have been given if 
that is in fact happening?
    General Allen. It is an important question because it goes 
to the issue ultimately of reconciliation, which is, if you 
will, the social-human aspect of what we are seeking to do in a 
material sense, which is to restore the territorial integrity 
of Iraq. We have to do that in a human manner as well.
    Senator Markey. My wife was the chief of behavioral 
medicine at the National Institutes of Health, and she always 
said there are two choices in life. One is reenactment. Very 
bad. It leads to escalation. The other is reconciliation where 
you hear the other side. And countries are like individuals.
    General Allen. That is right.
    Senator Markey. They have the same pathologies. And in the 
absence of ongoing interventions, the underlying pathology 
almost invariably recurs.
    So if you could give us a little summary of Tikrit. What 
has happened since the Sunnis have begun to repopulate?
    General Allen. I will take the question, but I will answer 
it as well because I want to give you some statistics, but I do 
not have those off the top of my head.
    But Tikrit is an example of where we would love to see the 
entire conflict end up. First of all, there is a Sunni 
provincial governor in Salah ad-Din who has worked in 
partnership with Prime Minister Abadi in the process both of 
the recovery of Tikrit but also now the repopulation of Tikrit. 
We, the coalition, worked closely with the Iraqi interagency, 
led by the Germans and the Emiratis, of course, with the 
Americans deeply involved in the process, of helping to move 
funding with the Iraqi Government into the repopulation of 
Tikrit. About 75 percent of the population has gone home, well 
over 200,000 of the individuals, primarily Sunni, who were 
displaced as IDP's from Tikrit. So the process of clearing the 
city was largely done by PMF and----
    Senator Markey. PMF is----
    General Allen. The Popular Mobilization Front.
    Senator Markey. It is just an acronym test?
    General Allen. The Popular Mobilization Force, which are 
the forces that were called to the fatwa of the Grand Ayatollah 
last year. And so the Iraqi Security Forces and the PMF cleared 
Tikrit, which is largely a Shia clearing force.
    Immediately behind that clearing force came in elements of 
the Sunni police and tribal elements to secure the city, which 
then permitted the return of the Sunni population, 75 percent, 
215,000 or so by this point. The Iraqi central government, a 
Shia government, lined up the interagency to provide the 
restoration of essential services in conjunction with the work 
of the coalition. And what we see there, to your point, 
Senator, where there are difficulties with reconciliation at a 
legislative level, at the national level, the kinds of return 
that we get with the right kinds of a sequencing of the support 
to the Sunni population and the reestablishment of Sunni 
leadership on the ground creates the effect of reconciliation--
--
    Senator Markey. So are the Sunnis now running Tikrit 
effectively?
    General Allen. Yes, they are.
    Senator Markey. So you are saying, in other words, 
essentially if this was the United States of America, they 
would have elected a Sunni mayor at this point because it is 
overwhelmingly Sunni. I am just talking about the functional 
political leadership inside of that city now in a larger 
confederation with the rest of the country. Is it now Sunni-run 
effectively, picking up the garbage, the police, the----
    General Allen. By and large it is.
    Senator Markey. By and large it is.
    General Allen. And the intent with Ramadi is to do exactly 
the same thing.
    Senator Markey. Well, I think that is an important real 
message to get out, that there is a success story there. But I 
think perhaps you could give us more detail, a written 
explanation, of where we are.
    General Allen. We will do that.
    Senator Markey. You are both great public servants, and I 
thank you for your work in Pakistan especially. I worked with 
you.
    Let us move over to Yemen, if we could, and political 
reconciliation over there, how you view the Saudis, how you 
view the likelihood that they could move toward some form of 
political reconciliation so that we can de-escalate this 
military confrontation that promises the same kind of results 
in Yemen that we are seeing in Syria right now. So talk to us a 
little bit about the Saudi Arabians, what their attitudes are, 
and what we are doing to press them into thinking more about a 
negotiated resolution politically of this conflict.
    Ambassador Patterson. Yes, Senator. First, let me say that 
I think there are some hopeful signs under the U.N. auspices 
that the Yemenis among themselves will come together in some 
kind of process. But we talk to the Saudis all ???the??? time 
about this. So when the Secretary was there a few days ago, 
this was, of course, an issue on the agenda. We have urged the 
Saudis to improve humanitarian access to Yemen. That is a very 
urgent priority. And things have become marginally better as 
more fuel has come in.
    But, Senator, there are issues that go really to the heart 
of Saudi Arabia's security, which are the attacks on their 
border, the cross-border attacks and cross-border incursions. 
And of course, we have been assisting them in resisting that 
and providing certain facilitation so that they can resist that 
more effectively.
    But we are very concerned about the situation there. The 
likelihood of a humanitarian disaster and incipient famine 
seems very acute. Again, I think we are reasonably optimistic 
because, frankly, many Saudis understand. Most Saudis 
understand that this cannot go on much longer because it is 
going to turn the Yemeni population against them and because 
they are going to be responsible for rebuilding the country, 
and it is going to be very costly in terms of both influence 
and resources.
    Senator Markey. I thank you both.
    And if I can say to you again, General, if you could just 
tell the Iraqi Government how much this committee would like to 
believe that there is a metric inside of Tikrit and other 
liberated cities, that you can report back to us in terms of 
the number of public officials, the amount of control, the 
amount of Sunni leadership that is unquestioned inside of those 
cities, that would help us a lot to see that progress was 
possible. And the same thing is true with the Saudi Arabians. 
We need a metric here that they are actually moving in a way 
that we have evidence in Yemen and that it is not just going to 
be a repetition syndrome again where we are having this Shiite-
Sunni thing just play out and that they are not taking, where 
they have opportunities, a diplomatic alternative.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here today and for your service.
    I just returned from Germany and Greece where we got a 
chance to see firsthand what is happening with the refugees in 
Europe and also to talk to them about their perspective on 
Syria and the Middle East. And I think it is fair to say that 
the Germans would say that they have been contributing to the 
effort in the Middle East to fight ISIS. I wonder if one of you 
could detail--given Senator Corker's raising that concern, if 
you could detail what exactly our European partners are doing 
to support the effort against ISIS?
    General Allen. We are organized within the coalition along 
five lines of effort. There are a large number of our European 
partners who have contributed ground forces to the training 
mission and to the advising mission, and a number of them have 
contributed aviation assets for strike operations in Iraq 
primarily and are considering strike operations in Syria. And 
the French are striking in Syria along with us.
    They have also provided leadership to a number of the other 
of the lines of effort. The counternarrative is--the British 
are leading that effort, and many of our European partners are 
participating in working closely on the countering of the 
narrative of Daesh.
    The Germans are leading the stabilization effort and are 
championing the development of the UNDP funding facility for 
immediate stabilization, which is the money that goes 
immediately behind the clearing effort to begin to restore 
essential services. The Germans have been very important to the 
process of leading that, in partnership with the Emiratis.
    Within the Stabilization Working Group, the Italians have 
been very forthcoming in volunteering their Carabinieri, which 
are some of the finest police on the planet. And they are 
leading the training of the Sunni police to be the follow-on 
force behind the Shia clearing force. That has been an 
extraordinarily important contribution.
    The Dutch are coleading countering the foreign fighter 
effort, along with many other members of the coalition, as the 
Italians are coleading the effort on countering Daesh finances.
    And within each one of those lines of effort, there are 
multiple coalition members, many European members, who are 
prominent in that process of helping.
    So our European partners are deeply, deeply embedded and 
deeply committed inside the coalition to our collective effort 
ultimately to defeat Daesh.
    Senator Shaheen. Thank you.
    Assistant Secretary Patterson, several people have raised 
the issue of refugees, and I certainly believe that the number 
and flow of refugees poses a real threat to Europe, to the 
European Union, and that it is important for us to figure out 
what we can do to support the efforts with the humanitarian 
needs and the relocation needs of the refugees.
    Can you detail what our gulf partners are doing to help 
with the refugee crisis?
    Ambassador Patterson. I can certainly say that they have 
provided very considerable funding to address the refugee 
crisis, certainly in the hundreds of millions of dollars.
    I think the issue you are getting at is the resettlement of 
some of the Syrian refugees in these gulf countries. And this 
is an issue that we have discussed with them any number of 
times. They argue that they have taken in tens of thousands of 
these refugees. I think the answer to that is that they are 
people that are legally there as guest workers and not under 
refugee status. That is really the distinction. So we continue 
to have this discussion with them.
    And of course, if I might say so, we have put well over $4 
billion into this effort primarily in Jordan and Lebanon, which 
are the two most seriously affected countries. And we continue 
to, for want of a better word, fundraise with all our allies 
consistently on this. You all have been quite generous on this 
issue too.
    Senator Shaheen. Well, I certainly agree that Jordan and 
Lebanon and Turkey have all taken in more than their share of 
refugees, but for some of the other gulf countries, Saudi 
Arabia, UAE, other countries, not only have they not taken in 
refugees, but they have also contributed, as I understand, only 
intermittently to the financial need to address humanitarian 
efforts around the refugees. And so while they may have 
committed funding, that funding has not always been 
forthcoming. And I would hope that we would do everything 
possible to try and urge them to join Europe and the rest of 
the international community in doing everything we can to 
support the refugees.
    Ambassador Patterson, you started talking about Tunisia, 
which is one of the few bright spots in the Middle East in 
terms of the potential for a functioning democracy. Can you 
talk about what more we should be doing to support Tunisia?
    Ambassador Patterson. Senator Shaheen, I went to Tunisia 
about 2 weeks ago and it was not too long after the terrorist 
attacks. And the effect of these two attacks on the museum and 
on the beach with European tourists was absolutely devastating. 
You could see empty hotels, empty museums, empty planes.
    So we have to step up our efforts there. And we are 
stepping up our efforts in terms of loan guarantees and 
economic assistance. If I might make a plug, we sent to the 
Congress a greatly enhanced financial package for Tunisia this 
year. We are trying to help them with economic reforms, and we 
are trying to help them, very importantly, because this is an 
area in which we specialize, to build up their security forces 
and their counterterrorism capacity to identify these terrorist 
threats. It is going to be hard because they are next door to 
Libya. And this young man had trained in Libya who committed 
one of these attacks and was a lone wolf. But our focus, at 
least in the short run, is on building up their security forces 
and their counterterrorism capacity. They have over a million 
Libyans in Tunisia at this time. So they are also taking the 
brunt of these ungoverned spaces. But we will do everything we 
can.
    Mr. Gunichi is here this week, and then next week we are 
going to honor some Tunisians with the Nobel Peace Prize, 
including their national labor leader.
    Senator Shaheen. Thank you.
    Is our assessment that the biggest threat to Tunisia is the 
chaos in Libya?
    Ambassador Patterson. Yes, that is our assessment, that 
there will be spillover from Libya and the terrorist attacks 
that will emanate from Tunisia. Tunisia, Senator, has the 
highest per capita number of jihadis, of extremists in the 
world per population. So there are also issues in Tunisia with 
countering violent extremism, with reintegration, with better 
education and job creation. All these issues we are trying to 
help on that obviously need urgent attention.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Once again, we appreciate your service and 
your patience here today to answer our questions.
    General Allen, I want to deal with the impact that the 
Syrian conflict is having on one of our key strategic partners 
in the region, Jordan. We have talked about the refugee issues 
and the impact the refugee issues is having on the humanitarian 
international crisis, but also on the impact on surrounding 
countries. Jordan has taken in an extreme number of Syrian 
refugees.
    With Russia's military presence now in Syria, the question 
becomes whether there will be additional destabilizing 
activities that could increase the number of refugees. This is 
a particular concern in southern Syria, which has not seen much 
activity of late, but with the Syrian concern about the 
strength of the opposition and now being emboldened by Russia's 
military presence, there is a fear that there could be activity 
against the civilian population in southern Syria that could 
very well increase the number of refugees going to Jordan.
    Do we have a strategy to make sure that one of our key 
strategic partners, Jordan, has our help in deterring that type 
of activity in Syria?
    General Allen. I will answer, if the Ambassador would like 
to as well. But the answer, Senator, is yes. It is very 
important to us. The security of Jordan is extraordinarily 
important to the United States and to the region. We are very 
attentive to the demographic laydown of the population in 
southwest Syria, which is directly adjacent to, if you will, 
the heartland of Jordan. I was just there, just spoke with the 
head of their intelligence service and also their chief of 
defense. They are very focused on it. We are also with them 
very focused on this issue. I will not get into the operational 
details, but I will assure you, Senator, that that is a major 
point of focus and interest for the Department of Defense and 
for the Department of State, sir.
    Senator Cardin. Good. And I would encourage you to do that.
    Ambassador Patterson, do you want to----
    Ambassador Patterson. Let me just add, sir, that as you 
say, that the moderate opposition in southern Syria has been, 
more or less, holding its own, and they do provide a first line 
of defense against ISIL incursions. I would say that refugee 
flow, yes, is a very serious concern but also potential 
incursions by ISIL. And the government is very worried about 
that. Over the past year, Senator Cardin, we have been trying 
to accelerate weapons deliveries. We have an extremely large 
military assistance mission there in all its elements, shall I 
say. We have stepped up border security. They need a lot of 
help on the border. I think we have got a briefing plan up here 
on that particular issue in the next week or so. And there are 
other plans in the pipeline to shore up Jordanian security 
because, as you say, Senator Cardin, it is an absolute 
essential U.S. ally and critical to regional stability and 
frankly critical to Israel's defense.
    Senator Cardin. And I would just point with the Assad 
regime's history of its attack on an innocent population, the 
fact that ISIL is a threat to that region also could be used as 
a justification for increased regime activities in that region 
against the population, causing not only the direct loss of 
life but also the flow of additional refugees into Jordan, 
which would be very destabilizing. So I appreciate that we have 
that under control.
    Ambassador Patterson, I want to ask one additional question 
in regards to your seeing positive steps by Palestinian leaders 
in regards to dealing with the terrorist activities in Israel, 
the innocent loss of life by lone wolf type attacks, using 
knives and cars. There have been some positive steps between 
the Israelis and Palestinians and with the U.S. on suggestions 
for the Temple Mount. I do not know what you are referring to 
when you say positive steps by Palestinian leaders. Mr. Abbas 
has been very reticent to condemn the individual attacks in a 
regular way. Where do you see positive steps by the Palestinian 
leaders?
    Ambassador Patterson. Well, Senator Cardin, I think the 
Secretary is in constant contact with President Abbas. And I 
would agree with you that some of his statements in the last--
regarding these unsettled times and the Temple Mount, Haram al-
Sarif, have been less than reassuring. But we are constantly in 
a dialogue with him on these issues and urging them to take a 
positive role. I think there was progress over the weekend 
between Jordan and Israel to reduce the tensions on the Temple 
Mount, and those will play out over the next few weeks. But I 
can assure you the Secretary is deeply involved with all three 
players in this effort right now with Jordan and Israel and the 
Palestinians to move this process forward.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just three quick questions, Ambassador Patterson, I wanted 
to clear up. I know that Senator Risch and Senator Kaine and 
others talked about legal authorities. But I think what they 
were referring to--and clarify, if you will, when we say there 
is a debate within the State Department about the legal 
authorities, you are not talking about the domestic legal 
authorities relative to Assad. It is international law that you 
are focused on. Is that correct?
    Ambassador Patterson. Again, I hesitate to go here. But I 
have been on the periphery again of many conversations on this, 
and there has been a great deal of discussion among our 
attorneys about just this issue. And that is why I would like 
to get them up here to have them discuss on the international 
law aspects and what I would call some evolving areas.
    The Chairman. And I would assume that if the administration 
felt that domestically it needed some authorities to do things, 
they would come and ask for that. Is that correct?
    Ambassador Patterson. I am sure that is true, Senator.
    The Chairman. So I just do not want to leave the impression 
here that somehow because you are relying upon the 01 
authorization to go against ISIS, that somehow lack of actions 
here are keeping you from carrying out what you want to carry 
out in Syria. It is the international law component.
    Ambassador Patterson. Exactly, Senator. And I certainly did 
not mean to imply that. You are quite correct. It is the ambit 
of international law that we were discussing.
    The Chairman. And you see no constraints at present 
relative to domestic law. And if you chose, if you felt like 
international law allowed you to go in against Assad for some 
reason, then you would seek, I assume, domestic authorization 
to go against Assad because the 01 authorization does not 
authorize you to do that.
    Ambassador Patterson. Senator, I know we would seek from 
the Congress whatever our specialists in this area told us to 
seek.
    The Chairman. And so today--I just want to be real clear 
about this--Congress in no way is inhibiting the 
administration's ability to carry out what it seeks to carry 
out in Syria or in Iraq today.
    Ambassador Patterson. That is my understanding, Senator.
    The Chairman. Secondly, I just do not want this 
conversation to go in a direction I do not think what you 
intended and certainly not what I am.
    There is a memorandum of understanding, I understand, that 
has been developed between us and Israel. We have not seen a 
copy of it yet. I wonder if you might describe what the 
memorandum of understanding--what the contents of it are.
    Ambassador Patterson. There has not been one developed, 
Senator. Are you talking about the military assistance 
memorandum of understanding? It does not expire until 2018.
    The Chairman. I understood that some memorandum had 
recently been developed between the administration and Israel.
    Ambassador Patterson. That is not correct. I think what you 
saw in the press was some--there had been some, if I might say, 
desultory conversations about this, but the discussions have 
not really started. And of course, the current one is still in 
effect, which provides for $3.1 billion a year.
    The Chairman. And just on that note, I know that there have 
been a lot of discussions about us ramping up, if you will, 
efforts toward weaponizing other countries in the Middle East. 
We have got about a $6 billion FMF budget; $3.1 billion of it 
goes to Israel; $1.5 billion, I think, roughly goes to Egypt, 
your former post. Just out of curiosity--so that is $4.6 
billion, if I do my math correctly. So how are we allocating 
those FMF funds in a way that do the things that we talked 
about at Camp David?
    Ambassador Patterson. Well, most of the gulf allies--they 
pay cash, and they often go through the FMF system--FMS system, 
the foreign military sales system. But they also, to the extent 
they can, do direct commercial sales with suppliers.
    But on the FMF, I would say that our FMF budget is limited. 
I would love to have more for my countries, Jordan and Lebanon 
being very high priorities. Jordan is now a major recipient of 
FMF to the tune of slightly over $300 million a year. We need 
to give more FMF to Tunisia to build up their security forces. 
So it would be very useful to have more of it.
    But most of the security enhancements with the gulf--all of 
them that I can think of--are basically directly with U.S. 
suppliers or through our FMS system, and they purchase them 
directly.
    The Chairman. Thank you for that.
    Senator Cardin. On that point, we do have a new memorandum 
of understanding with Jordan.
    Ambassador Patterson. We do, Senator.
    Senator Cardin. And how would that affect the allocation of 
the existing----
    Ambassador Patterson. Well, basically the Congress raised 
the top line. There will be pressures this year I think between 
some worthy recipients in the Middle East region about 
allocating these funds. And we will, I think, work that out 
with members of this committee and other members. But, yes, 
there is tension between, for instance, recipients such as 
Jordan and Tunisia who both need stepped-up military 
assistance. And I do not want to forget Lebanon in this as 
well. They have also been victimized by ISIL, and their 
security forces have done a good job and are very worthy of our 
continued support.
    Senator Cardin. Mr. Chairman, I would just point out we do 
not know how this budget agreement and the allocations are 
going to be allocated, but I would hope that we would be 
transparent with this committee as to the requests that are 
being made through the appropriation process so that we can 
have a unified front in allocating the resources in the most 
effective way to achieve U.S. objectives.
    Ambassador Patterson. I certainly think we have been 
transparent, and we can certainly schedule a briefing at any 
time you might desire. We can schedule one right away about 
some of the tradeoffs. But we are going to have to make some 
hard choices, and the security situation for our allies in the 
region is very concerning.
    The Chairman. Thank you.
    General, I referenced Europe earlier, and obviously 
Europe--people have used words. You know, the whole context of 
it is changing because of the refugee crisis. The genesis of 
much of that is coming out of Syria. I know Secretary Kerry 
yesterday alluded to the fact that our interests and Europe's 
interests and many of the Sunni Arab countries' interests--all 
of these things will be putting pressure on Russia apparently, 
per Secretary Kerry, to align with us, if you will, relative to 
what is happening in Syria.
    I must be missing something, but we are all horrified by 
the massive amount of refugees that exist, the biggest 
humanitarian crisis since World War II. I know that, obviously, 
Europe directly, far more than any other portion of the world, 
is being affected by that. But I do not see the same effort, if 
you will, relative to Syria.
    Now, I know you mentioned some things in Iraq, and I may 
have missed something. But I do not see Europe near as focused 
on the crisis in Syria as we are, and I wonder if you might 
just illuminate. Maybe that is a false impression.
    General Allen. I would ask the Ambassador to come in with 
me on this.
    We are going to meet next week in Brussels at a small group 
level, 23 key partners from the coalition, where we intend to 
talk about Syria, the developments there, and how we might 
anticipate those developments unfolding so that as a coalition 
we can be more helpful.
    I think one of the principal differences--first--I am 
sorry--let me back up. If we were to list for you the bilateral 
European--and we can seek to do this, in fact--the bilateral 
European assistance to Syria, I think you would find that it is 
not insignificant. And that is not just in supporting the U.N. 
in its appeals for humanitarian assistance, but also specific 
assistance to elements of the Syrian population. They, of 
course, have smaller capacity than we do and less money that 
they can contribute, but per capita it is not insignificant. 
And we find that in southern Turkey, there are other European 
partners there who are, in fact, working directly through NGOs 
to the Syrian population.
    The Chairman. If I could just for a second.
    General Allen. Sure.
    The Chairman. It is very rare that I would interrupt you.
    So Europe GDP-wise, actually as a whole, they are as 
significant as we are. So I hear you on the humanitarian piece. 
But the root of the refugee crisis is what is happening in 
Syria relative to Assad bombing his own people and what is 
happening with ISIS. And I guess what I am missing here is we 
are outraged by that. The committee is outraged. The American 
people are outraged by that. I do not understand the disconnect 
between the tremendous impact on Europe and the lack of effort, 
if you will, on their part to do something kinetically or in 
other ways directly to ISIS. I do not get it.
    So certainly I agree with your comments relative to who 
ISIS is and certainly we all collectively understand the threat 
they are to the world. I do not understand why Europe itself 
does not see that when they are so directly impacted.
    General Allen. Chairman, I do not know that Europe does not 
see that. I know quite a few European leaders, and the horror 
that they express not just at the distress of a huge segment of 
the population which has taken to hoof because of the 
conditions in the region, but also the stress that now their 
own society is having to bear as a direct result of the 
presence of large numbers of refugees and societies where 
economically there are already difficulties and large 
unemployment numbers. Europe is under a lot of pressure.
    The Chairman. I understand all the societal issues, but why 
are they not more involved in the root issue?
    General Allen. In many respects the same reason that we are 
not, and that is that we did not have options in Syria to take 
action against Daesh in the way that we now can and the way 
that we now will until just a few months ago. Europe has been 
deeply involved with us from the beginning with regard to Daesh 
in Iraq because we had platforms that we could create in Iraq 
where many of the European countries sent their troops at not 
insignificant cost and treasure, but certainly with the 
expectation that there could be casualties here. We have not 
been complacent at all with their security. But many European 
partners have invested not insignificant numbers of their young 
men and women into the training and advising process and their 
aviators are flying in the skies over Iraq every single day, 
and some of them are flying over Syria. And I expect that as 
time goes on, as we continue to build our military options on 
the ground in Syria, we may well find that we will have other 
European partners join us in that process.
    We are in an active conversation with many of our European 
partners about the potential for them to relocate and to join 
us on the ground in Insurlik. That is a base that has become 
available to us. And while we have not got answers back--we 
have just started the process of asking--we would love to see 
European partners and our Australian colleagues, who were with 
us in all of these fights, to join us at Insurlik because when 
the time comes for us to really bear down on Daesh in Syria and 
to close the border with Turkey, it is much easier for us to 
fly 15 minutes to get to the border of northern Syria than 4\1/
2\ hours coming out of the gulf. And so that conversation is 
open. The Europeans are considering our request. Whether they 
do or not, it is a complex answer. It is not just as simple as 
go to Turkey. They have got bilateral relationships in the gulf 
that are old and have been cultivated in order for them to 
deploy.
    So I want to be very clear that my sense of the European 
commitment both to the coalition at large in the sense of 
expressing the outrage of the community of nations is loud and 
it is constant from our coalition partners, but also the 
tangible, physical, the human commitment and the monetary 
commitment to the coalition has not been insignificant either. 
The opportunity to do things in Syria has not been nearly as 
available to our European partners as has been the opportunity 
for them to participate in a very credible, real, open, and 
visible way in Iraq. And I expect that as time goes on and as 
more opportunities become available to us, we may well see our 
European partners become more kinetically involved in Syria.
    The Chairman. So I know you have referenced Insurlik a 
couple times, and we all thank you for your efforts to create 
the conditions where Turkey would be willing to let us use 
that.
    But over the last 60 days, you say conditions have changed. 
That is obviously one of the changes. What are some of the 
other conditions that have changed that will make it much more 
easy, if you will, for Europe to be much more kinetically 
involved in what is happening in Syria?
    General Allen. Beyond the potential contributions for 
aviation, we may well see that if we do more in terms of 
supporting some of the groups in Syria, we may see some 
European counterparts be willing to join us in that process. 
And whether it is to provide additional equipment or provide 
additional training and support--and I want to be very careful 
about some of the operational details in this forum that I 
would discuss with respect to those options. And I am happy to 
go offline with you on both of those. We may well see that we 
have European partners willing to do it.
    And it is not just about Turkey. It is about the south as 
well. What we are seeking to do is to create pressure on Daesh 
across its entire periphery, and there may be opportunities in 
the south, as well as in the north, where our coalition 
partners, our European coalition partners, could in fact play 
an important role, and I am thinking special operations, but I 
will not become more specific than that.
    The Chairman. I mean, we have seen, you have seen, others 
have talked about what Russia has done on the ground relative 
to, quote, ``our friends.'' Do you see a situation developing 
where Russia would concentrate its efforts solely on ISIS and 
not on the more moderate groups that, quote, ``are our 
friends''?
    General Allen. No, I do not see that at all, Chairman. I 
think the Russians are not there to deal with ISIS.
    The Chairman. So if you will, that 180 degrees contradicts 
what Secretary Kerry said yesterday--180 degrees--in that he 
does see us having the focus together on ISIS. Again, that is 
why I asked in my opening comments or made the comments about 
the facts on the ground. The facts on the ground are that 
Russia is killing our friends. And you do not see them moving 
away from killing our friends to focusing like we are on ISIS. 
You do not see that happening.
    General Allen. I want to be very clear that the way you 
phrased the question, which was that Russia would focus 
exclusively on ISIL, I do not see that they are going to do 
that because Russia, in the end, is there to stabilize Assad 
and, if you will, the wolf closest to the door for Assad is 
Jabhat al-Nusra and other elements, Jaish al-Fatah and some of 
the Syrian opposition elements that we have relationships with. 
Those are the ones that are the greatest threat. Those are the 
ones where the Russians are, in fact, providing support to both 
the regime's ground forces and Hezbollah and Iranian-supported 
elements. They are providing that capability to first stabilize 
the situation and probably ultimately to recover the Alawi 
heartland. At this juncture, we have not seen and we will not, 
I think, see a large-scale Russian investment in going after 
ISIL because it has to do what it came there to do, which is to 
prevent the collapse of the Assad regime.
    That does not mean eventually that they will not join us in 
a larger investment of their resources in dealing with Daesh, 
but for now I think very clearly--while we had an expectation 
that we would partner to deal with Daesh, that the Russians 
would play a role in the reduction of violence and the 
reduction of the conflict and then play a role constructively 
with us in creating a political transition, we have not seen 
any of that.
    And so for now, the coalition is going to continue to 
remain focused on and will bear down on Daesh as an entity 
while the Secretary is taking the steps necessary with this 
potential opportunity to try to create that conversation where 
the Russians could conceivably join that conversation, to set 
the conditions for the potential for transition.
    But for now, the Russians have got to do what they came 
there to do, and that is stabilize Assad. And to do that, they 
have got to attack those forces that are the greatest threat to 
Assad. Daesh is somewhere down the pike for them, as far as I 
am concerned. And I think the Russians are going to start 
feeling some serious pain on this. The regime forces are not 
doing that well under Russian close air support. They are 
underperforming, and I think the Russians are definitely 
dismayed by the performance of the regime forces under both 
Russian artillery support and aviation support.
    There are other groups within Syria that are beginning to 
amass their capabilities. As Secretary Carter said yesterday, 
the Russians are catalyzing a unity between groups that we 
might not otherwise have wanted to happen. But they are doing 
it for survival purposes to fight the Russians and to defend 
themselves against a ground offensive by the regime. And also, 
we are seeing probably somewhere between 50,000 and 80,000 
refugees that are beginning to emerge because of direct Russian 
support of the regime elements in Hama and Homs province and 
Aleppo. I mean, we could see an entire new wave of refugees 
coming from the Russian incursion here.
    This is not a great strategic move on their part. This is a 
move to prop up one of their oldest overseas allies, perhaps 
their only overseas ally at this point, taking Cuba off the 
table. And they are going to find this is going to become very, 
very difficult. Already the support that they are giving is not 
providing the kind of outcome that they had wanted. And so they 
are probably going to find in the very near future, since they 
are not going to be able to resolve this militarily, that they 
want to start to think about a political resolution. And that 
is why it is important for them to seriously getting involved 
in this conversation that the Secretary is trying to set up. He 
sees this as an opportunity.
    The Chairman. And I am in no way, at your last public 
hearing, trying to draw you into conflict with the Secretary. I 
will say it is my strong impression--and I will use those words 
so that it can be challenged. My strong impression is that the 
Secretary believes that a fundamental first step is for Russia 
to stop killing those that are our friends. And that is why I 
have said in the past and said yesterday that the facts on the 
ground today, which you are alluding to right now, do not lead 
one to believe that on Friday there is going to be a lot of 
progress because there is just such a difference in what their 
goals are, which I think was said many times here today, but 
maybe was not focused on as clearly as we are right now in this 
conversation.
    General Allen. Chairman, I do not disagree with the 
Secretary's point. I think the Secretary's point is very 
important. Look, Russia is going to suffer from this incursion 
in ways they cannot even begin to imagine. We thought we had a 
good handle on what the foreign terrorist fighter access was 
going to be coming out of Turkey into Syria. Everywhere I have 
gone in the gulf and everywhere I have talked to our Arab 
partners, every one of them is saying the potential for a re-
sparking of the global jihad is enormous as a direct result of 
this. So when Secretary Kerry says in order for this to move 
forward, they have got to stop killing our people, what he is 
saying is they have got to stop killing the moderate Syrians 
who are, in fact, the political hope for the future in Syria. 
We are going to have to deal with al-Qaeda eventually. That is 
Jabhat al-Nusra. That is a big organization. And we are going 
to have to deal with Daesh. But when the Russians stop killing 
the moderate Syrian opposition, which is both their hope for 
the future, as well as our hope for the future, then perhaps we 
can get to where we need to be. But they are going to have to 
feel some pain on this, and I think they are going to 
relatively soon.
    The Chairman. Well, listen, thank you for those 
clarifications. We appreciate so much your service to our 
country and for being here today in an open setting. We do look 
forward to following conversations even after your retirement 
to help us think through these issues. I appreciate you being 
such a tremendous asset to me in this position. I really do.
    Ambassador Patterson, we thank you for your continued 
professional service in the toughest area of the world right 
now that we are dealing with relative to competing interests. 
And thank you for being here today and the way you are.
    With that, the record, without objection, will remain open 
through Friday. If you all would fairly speedily answer any 
questions that come forward at that time, without objection 
that is the way it will be.
    And the meeting is adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Gen. John R. Allen to Questions 
                     Submitted by Senator Rand Paul

    Question. Do you think the ISIL threat to U.S. national security is 
severe enough to warrant the President seeking an AUMF from Congress?

    Answer. Last February, President Obama developed and transmitted to 
Congress an AUMF proposal that reflects bipartisan input, contains 
reasonable limitations, and would provide the administration with the 
flexibility necessary to successfully pursue the armed conflict against 
ISIL. The President's draft AUMF includes a 
3-year sunset, does not authorize ``enduring offensive ground combat 
operations,'' does not include a geographic limitation, and repeals the 
2002 Iraq AUMF.
    The administration looks forward to continuing to work with 
congressional leaders in both Chambers, and we remain open to 
reasonable adjustments that are consistent with the President's policy 
and that can garner bipartisan support. A new authorization would show 
our troops, our allies, and our enemies that we are united in our 
resolve to degrade and defeat ISIL.

    Question. In the testimony you gave on October 29 you stated that 
Russia's intervention in Syria will leave them in a quagmire and affect 
them domestically. Does that same rationale not also apply to the 
United States? Should your dire warning for Russia also be considered 
by the United States since recent administration proposals would put 
U.S. boots on the ground?

    Answer. A comparison cannot be made between U.S. and Russian 
actions in Syria. As we have consistently said, the answer to the 
Syrian conflict cannot be found in a military alliance with Assad--but 
rather, through a broadly supported diplomatic initiative aimed at a 
negotiated political transition, consistent with the Geneva Communique. 
Russian officials have said publicly that they agree the only solution 
in Syria is a political transition, although they bomb the moderate 
opposition that must be part of that political solution.
    We have consistently urged Russia to focus its efforts on ISIL and 
to use its influence with the Assad regime to support a genuine 
political transition. However, thus far Russian actions in Syria have 
been to prop up the regime--their ally in the region--which only 
further inflames the conflict and places Russia in the middle of a 
civil war in the Middle East and against the vast majority of the 
Syrian people. In doing so, Russia is making itself a target for 
violent extremists in Syria, from within Russia, and from other parts 
of the world. The Russians have stated publically that in excess of 
2,000 Russian citizens are fighting for ISIL in Iraq and Syria today. 
Russia is also isolating itself from the large majority of the 
countries in the region--including Turkey, Saudi Arabia, and the Gulf 
States, Jordan, and others.
    In contrast, the United States is working with a Global Coalition 
of 65 partners, which continues to focus on fighting ISIL. We will 
continue to provide a range of assistance, in coordination with 
international and regional partners, to moderate opposition elements to 
bolster their ability to withstand the pressure they are currently 
under and achieve a political transition that is responsive to the 
Syrian people.

    Question. The administration sees ISIL/Daesh as a regional threat. 
Do you see any rationale by which the United States would conduct air 
strikes or ground military operations in other countries other than 
Syria and Iraq?

    Answer. We remain focused on achieving our objectives in Iraq and 
Syria--ISIL's principal source of strength. ISIL's core in Iraq and 
Syria is the foundational platform from which ISIL draws its 
organizational strength, resources, and capabilities. We believe that 
degrading and defeating ISIL at its core will discourage and disrupt 
the activities of ISIL's global reach and of those groups which have 
claimed an affiliation.
    That said, we are extremely concerned about ISIL's ability to 
cooperate with other violent extremists outside of Iraq and Syria as 
well as its ability to spread its violent ideology. Most of these 
groups are preexisting groups or have emerged from local contexts and 
then exploit local grievances and instability to gain recruits. To 
counter these groups, we are working through bilateral relationships 
and with a range of partners through our existing counterterrorism 
platforms.

    Question. Congress allocated half a billion dollars for the train 
and equip mission and the administration spent close to half of that on 
the failed program. Even President Obama spoke publicly on his 
reluctance to embrace the Syrian train and equip program.
    As a former senior military leader, what strategic advantage did 
this failed program provide when it was known most Syrian rebels wanted 
to fight Assad first and the most dedicated fighters had already 
decided to fight for al-Qaeda? Why was this program proposed when it 
was known the United States would be working with the least motivated 
Syrian rebels?

    Answer. The Department of Defense clearly acknowledged that it 
faced challenges with the train and equip program and that is why the 
administration has taken steps to refocus the program on equipping and 
enabling capable partners on the ground that have already proven they 
are motivated to take Syrian territory from ISIL. The successes won by 
these partners have enabled us to look beyond the initial opportunities 
we had when we started the program.
    From the program's inception, we have continually reviewed our 
progress, acknowledged challenges, and worked to determine how we can 
improve our efforts in support of our partners on the ground. 
Throughout this period, working with our coalition partners, we have 
also pursued other efforts to partner with and enable capable ground 
forces motivated to take back Syrian territory from ISIL. For example, 
we supported the counter-ISIL fighters in Kobane, allowing them to take 
back a key border crossing and press deeper into Syrian territory 
controlled by ISIL.
    Building on that progress, the Department of Defense is now 
providing equipment packages and weapons to a select group of vetted 
leaders and their units so that over time they can make a concerted 
push into territory still controlled by ISIL. We will monitor the 
progress these groups make and provide them with air support as they 
take the fight to ISIL. This focus on equipping and enabling will allow 
us to reinforce the progress already made in countering ISIL in Syria.
                                 ______
                                 

Responses of Assistant Secretary Anne Patterson and Gen. John R. Allen 
            to Questions Submitted by Senator Edward Markey

    Question. Assistant Secretary Patterson and General Allen, General 
Allen testified that after Iraqi Security Forces and predominantly Shia 
militias cleared ISIS forces from Tikrit in March the Government of 
Iraq reestablished local Sunni leadership there, that the local 
leadership is providing essential services, and that the national 
government ministries are providing the local leaders with required 
resources. General Allen further testified that Tikrit is a model of 
how to sequence actions to clear ISIS from Iraqi population centers, 
restore local governments that represent the population, and that the 
Iraqi Government is working to replicate this model in Ramadi next.
    Please provide greater detail on the restoration of government 
leadership in Tikrit that is representative of Tikrit's people. This 
should include a description of local governing structures, what 
services they are providing, and the extent to which local people are 
employed in efforts to rebuild their communities. Please include 
information about structures that link the national government with 
Tikrit's local authorities, the level of resources that the national 
government is providing to them to pay for essential services during 
transition, and what the national government is doing in conjunction 
with local authorities to plan toward long-term national government 
resourcing of Tikrit at levels on par with Iraqi cities in areas of the 
country where Shia populations are predominant.
    Finally, what metrics are we, our international partners, and the 
Iraqi Government using to judge whether reestablishment of 
representative local authority in Tikrit has been successful and how 
are those metrics being incorporated into future planning for other 
areas?

    Answer. The Salah ad-Din provincial government consists of a 
Provincial Council (PC) and Governor's office. The council consists of 
29 people who were elected in 2013; these members in turn elected the 
PC chair and vice chair, the Governor, and his two deputies. The PC 
works with the Iraqi Council of Representatives (COR), and the 
Governor's office has a direct line to the Prime Minister. The governor 
and the PC both coordinate directly with federal line ministries.
    Due to the Iraqi budget crisis precipitated by the drop in oil 
prices and the conflict with ISIL, the central government is facing a 
$20 billion budget deficit and is limited in its ability to provide 
support to any of its provincial governorates. Despite this financial 
crisis, the Salah ad-Din provincial government, working closely with 
the central government, has been able to implement several development 
projects with funding from the provincial and central government, 
augmented by $6.5 million in funding from the United Nations 
Development Program's (UNDP) Funding Facility for Immediate 
Stabilization (FFIS), a fund to which the United States has contributed 
$8.3 million.
    The current stabilization and reconstruction projects provided by 
the government of Salah ad-Din through line ministries include the 
restoration of drinking water and electricity to Tikrit City and 
surrounding districts; the direct supervision of the returnees and 
provision of shelter; distribution of food with the assistance of UNDP; 
the restoration of local police and security forces and establishment 
of check points; coordination with international organizations to 
restore health clinics; and coordination with UNICEF and Ministry of 
Education to set up portable classrooms.
    Tikrit has allowed us to test resources and mechanisms set up for 
stabilization, and we have seen significant progress since that city 
was liberated from ISIL in April. The Government of Iraq and the 
provincial governor are leading efforts with the coalition and the U.N. 
to support rehabilitation and stabilization. The most credible metric 
that can be used to assess the success of these efforts is the return 
of IDPs, and already approximately 75 percent of Tikrit's population 
has returned, with over 100 businesses reopening as the community 
begins to rebuild. Tikrit University is expected to open for classes 
within the next few weeks.
    Beyond Tikrit and its surrounding areas in Salah ad-Din province, 
provincial governments, in coordination with the Government of Iraq and 
with the support of the United Nations and coalition, are actively 
planning for the stabilization of other newly liberated areas. The 
Ramadi stabilization plan, for example, is the result of close 
collaboration between the Anbar Provincial Governor and the Government 
of Iraq, and offers a credible plan for restoring security and basic 
services once Ramadi is liberated from ISIL.

    Question. What is the process for adjudicating any claims that 
Sunni residents of Tikrit have made for rights violations by the forces 
that cleared Tikrit, or against the security forces that currently 
operate there?

    Answer. Accusations of abuse by security forces are investigated by 
the Citizen Service Office, chaired by the Assistant Governor of Salah 
ad-Din. It is worth noting that there are no significant reports of 
abuse by security forces in Tikrit. Salah ad-Din officials report that 
the Popular Mobilization Forces (PMF) who cleared Tikrit have been very 
accommodating of Sunni residents, and many Sunni tribal leaders 
actively coordinate with the PMF to maintain security. The relationship 
between the local Sunni population and the security forces currently 
operating in Tikrit is good. In fact, many Sunni residents recently 
participated in local festivities of the Shia Muslim commemoration of 
Ashura, a demonstration of positive cross-sectarian engagement.

    Question. What is the demographic breakdown of security forces 
personnel currently operating in Tikrit, including military and police? 
What percentage of them are natives of Tikrit?

    Answer. There are no official statistics on the sectarian 
composition of the Iraqi Army; however, most of the local police forces 
in Tikrit are from Salah ad-Din. Several thousand Sunni volunteer 
fighters from the Jabouri tribe are also involved in security 
operations in Tikrit.

                                  <all>
</pre></body></html>
